<html>
<title> - PROMOTE WILDLAND FIREFIGHTER SAFETY; WATERSHED RESTORATION AND ENHANCEMENT AGREEMENTS; GATEWAY COMMUNITIES AND FEDERAL LAND MANAGEMENT PLANNING; AND LAND EXCHANGES IN THE TAHOE NATIONAL FOREST</title>
<body><pre>[Senate Hearing 109-518]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-518
 
    PROMOTE WILDLAND FIREFIGHTER SAFETY; WATERSHED RESTORATION AND 
ENHANCEMENT AGREEMENTS; GATEWAY COMMUNITIES AND FEDERAL LAND MANAGEMENT 
       PLANNING; AND LAND EXCHANGES IN THE TAHOE NATIONAL FOREST

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   ON



                   S. 906                S. 2003

                   H.R. 585             H.R. 3981



                                __________

                               MAY 10, 2006


                        Printed for the use of the
                Committee on Energy and Natural Resources



                                 _____

                   U.S. GOVERNMENT PRINTING OFFICE

29-430 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




              COMMITTEE ON ENERGY AND NATURAL RESOURCES


                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                     Bruce M. Evans, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Craig, Hon. Larry E., U.S. Senator From Idaho....................     1
Duerr, Steve, Former Executive Director, Jackson Hole Chamber of 
  Commerce, Jackson, WY..........................................    24
Holtrop, Joel, Deputy Chief for National Forest System, Forest 
  Service, Department of Agriculture.............................     6
Kearney, Chris, Deputy Assistant Secretary for Policy, Management 
  and Budget, Department of the Interior.........................    12
Radanovich, Hon. George, U.S. Representative From California.....     3
Warren, Bob, Chairman, National Alliance of Gateway Communities, 
  Redding, CA....................................................    29
Wyden, Hon. Ron, U.S. Senator From Oregon........................     2

                                APPENDIX

Responses to additional questions................................    41


    PROMOTE WILDLAND FIREFIGHTER SAFETY; WATERSHED RESTORATION AND 
ENHANCEMENT AGREEMENTS; GATEWAY COMMUNITIES AND FEDERAL LAND MANAGEMENT 
       PLANNING; AND LAND EXCHANGES IN THE TAHOE NATIONAL FOREST

                              ----------                              


                        WEDNESDAY, MAY 10, 2006

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Larry E. 
Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, ladies and gentlemen. The 
Subcommittee on Public Lands and Forests of the Committee on 
Energy and Natural Resources will be convened.
    Let me welcome all of our witnesses from the Department of 
Agriculture and the Department of the Interior and our public 
witness to H.R. 585, Steve Duerr, executive director of the 
Jackson Hole Chamber of Commerce, along with Bob Warren, 
chairman of the National Alliance of Gateway Communities, from 
Redding, California. And I understand he has a support 
testifier today, in the form of a Congressman.
    George? George Radanovich, welcome to the committee. We 
appreciate you being with us today. George is here to speak in 
relation to H.R. 585. That's the gateway community legislation. 
Of course, let the record show that Congressman Radanovich 
represents the 19th District of California.
    We will also take testimony on S. 906, Senator Cantwell's 
bill to promote wildland firefighter safety; along with S. 
2003, to make permanent the authorization of watershed 
restoration and enhancement agreements; H.R. 585, to require 
the Federal land managers to support, communicate, coordinate, 
and cooperate with designated gateway communities--I've already 
mentioned that one--along with H.R. 3981, to authorize the 
Secretary of Agriculture to carry out certain land exchanges 
involving small parcels of National Forest System lands in the 
Tahoe National Forest in the State of California, and for other 
purposes.
    I will reserve my comments on most of these bills, but I 
would like to make this one comment on H.R. 585. I understand 
that some who are opposed to H.R. 585 believe the national 
parks were not set up to provide economic benefits to local 
communities, nor were parks intended to be these communities' 
exclusive playgrounds. But this bill is not just about national 
park gateway communities, it also addresses communities next to 
our national forests. I hope that we will work through the 
bill. All will remember what President Teddy Roosevelt told the 
Society of American Foresters, in 1903 at a meeting regarding 
the effort to form the Forest Service--he said, ``And now, 
first and foremost, you can never afford to forget for a moment 
what is the object of our forest policy, for that object is not 
to preserve the forests because they are beautiful, even though 
that is good, in itself, nor is it because they are refuge for 
the wild creatures of wilderness, though that, too, is good, in 
itself, but the primary objective of our forest policy, as the 
land policy of the U.S. Government, is the making of prosperous 
homes.'' That was the driving force behind the President, who 
created the forest preserves of our country. So, we are 
extremely pleased to have that bill before us.
    I've been joined by some of my colleagues. And before I 
turn to Senator Wyden, the ranking member of this committee, to 
make opening comments, along with my colleague from Wyoming, 
I'd like to recognize Senator Wyden's long-time natural 
resource counsel, Sarah Bittleman, who is leaving that office 
to begin to work for the Governor of the State of Oregon. I 
have reason to question her sanity.
    [Laughter.]
    Senator Craig. Sarah, I know you have worked extremely hard 
for your Senator, and I appreciate the legislative progress 
that we have made together as I've worked with Senator Wyden 
and you over these last 8 years. The State of Oregon and 
Senator Wyden have been well represented by you and your work, 
and I know many of the committee join me in wishing you the 
best of future endeavors. Now, Sarah has been with us only 8 
years, so she doesn't get a pin or a gold watch, but if Ron 
will throw a big party for her, I'll be happy to come.
    [Laughter.]
    Senator Craig. With that, let me turn to Senator Wyden for 
any opening comments he would like to make.

           STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. Well, Mr. Chairman, thank you very much, not 
just for your typical courtesies as we move forward with some 
important bills, but particularly for singling out Sarah 
Bittleman.
    She has been, in my view, the Bionic Woman. She has managed 
to be just about everywhere on natural resources issues, always 
working in a thoughtful and diplomatic way. And I would also 
note that Callie is here, and I think, between Sarah and 
Callie, we have had an especially professional duo. And it is 
one--we always say we really don't let anyone leave. Sarah is 
going to work for the Governor, but she is permanently going to 
have assignments, I think, with us, as well, as we consult with 
her late at night and try to once again see if we can make 
magic on issues like county payments.
    I think it's worth noting that between Sarah and Callie and 
Frank, especially, the staff folks that have handled it, we 
have, on Sarah's watch, been able to pass the only two pieces 
of major forestry legislation that have cleared the U.S. Senate 
in 15 years. Our good friend Senator Thomas is here. We have 
all watched, unfortunately, the kind of polarization and 
problems we've seen on natural resources, and Sarah, with 
Callie and Frank, have managed to cut through that and see two 
important pieces of legislation become law.
    So, in the special bipartisan salute to Sarah Bittleman 
that was launched by the chairman, I want to offer my 
resounding thanks, as well. There will, in fact, be a Sarah 
party, and it will not include any 4-hour-and-40-minute 
speeches by me, as I was compelled to make on the oil royalty 
issues.
    [Laughter.]
    Senator Wyden. I see that has brought great applause from 
Senator Thomas. But I can't think of a better way than to honor 
Sarah in a bipartisan way with the group that has worked so 
closely together over all these years. And I thank you 
especially for singling out Sarah, because when people talk 
about what's gone on in the last 15 years in natural resources, 
I think Sarah's name is going to be a key part of that history, 
and we're very, very appreciative of all of her contributions. 
Thank you for launching this special tribute, Mr. Chairman.
    [Applause.]
    Senator Craig. Ron, thank you very much.
    Let me turn to my colleague, Senator Craig Thomas of 
Wyoming, for any opening comments he would like to make.
    Senator Thomas. Thank you, Mr. Chairman. I didn't realize 
this hearing was going to be about Sarah, so I'm not prepared.
    I don't have any comments, particularly. I did want to 
welcome Steve Duerr, from Jackson Hole, Wyoming. I'm glad he's 
here today to testify on one of the bills.
    Thank you very much.
    Senator Craig. Well, thank you.
    And now, with that, let us turn to Congressman Radanovich 
in relation to the legislation that he has sponsored through 
the House, H.R. 585.
    George, welcome before the committee.

             STATEMENT OF HON. GEORGE RADANOVICH, 
              U.S. REPRESENTATIVE FROM CALIFORNIA

    Mr. Radanovich. Thank you, Senator. It's a pleasure to be 
here today.
    And, Sarah, may I wish you the best in Oregon, as well.
    I'm going to make sure that my comments go in, too.
    Thanks for the opportunity to come here and talk about the 
Gateway Communities Cooperation Act. It's H.R. 585. This bill 
was approved by the House on the suspension calendar last 
December, and it was also approved in the House in the 108th 
Congress.
    If I can go back and describe my situation in my neck of 
the woods in California, I was born and raised in Mariposa, 
which is right next to Yosemite National Park. It's a gateway 
community. And over the years, the county has had a checkered 
relationship with Yosemite. They cooperate, and the county 
provides very valuable services, like solid waste for the 
entire part of Yosemite National Park. There also have been 
times when we've had superintendents that, when they got this 
idea that there were too many cars in the park, the gate would 
shut down in the middle of the day and cause all kinds of 
havoc. And many times we've had superintendents--and I think 
that all of you who adjoin Federal lands, either forest lands 
or parks lands, know this--where they can pretend that the 
boundaries don't extend beyond the park, and give no 
consideration to things outside the park. Not only does this 
not benefit what we call the satellite communities, those small 
communities adjoining the park, but they do themselves, I 
think, a disservice, because in many--just by the proximity of 
some of these small towns and counties, they provide services 
to the Park Service and can be an asset for the development of 
the regional plans that the parks and Federal lands are 
required to do--for example, transportation, housing, many ways 
that satellite communities can be an asset.
    So, what this legislation does is that it requires Federal 
agencies, when they begin their planning processes, to invite 
the local authorities, the local counties to participate in 
that planning process. They can choose not to, because it would 
cost them some money and effort, I think, to do that. But they 
are at least given the choice to begin providing information up 
front when Federal agencies like the Forest Service or the Park 
Service do begin to develop their national plans.
    It's something that I think makes sense. And I would like 
to say that those people that might object to this, that it's--
not only does it--it would help provide, I think, an economic--
an ongoing, dependable economic asset to satellite communities, 
but also realize that satellite communities contribute a lot to 
the success and the planning, and can even do more to most of 
the Federal lands--BLM, Forest Service, and Park Service lands.
    So, I would deeply appreciate the subcommittee's 
consideration of this bill. I would like to make myself 
available to answer any questions that might arise from that. I 
think we've got most of them hammered out, at least to be on a 
suspension on the House side, and would enjoy the same type of 
treatment on the Senate.
    Senator Craig, thank you so much for bringing up this bill 
and allowing me to speak before you today.
    [The prepared statement of Mr. Radanovich follows:]
             Prepared Statement of Hon. George Radanovich, 
                  U.S. Representative From California
    Thank you, Mr. Chairman----
    I greatly appreciate this opportunity to testify before you today 
on H.R. 585. Your consideration of this measure is important to 
thousands of people who live in gateway communities throughout our 
nation.
    I like to call H.R. 585 the ``good neighbor act,'' even though its 
real name is the ``Gateway Communities Cooperation Act.'' The purpose 
of the bill is to make certain that small communities, located just 
outside of federal properties, have input in the federal planning 
process.
    This measure is critical to many of my constituents and important 
for numerous small communities throughout the country that are impacted 
by federal land planning decisions.
    As someone who represents several small towns located just outside 
of Yosemite National Park and near the Stanislaus and Sierra National 
Forests, I know that--too often--these communities are left out of the 
federal planning process.
    This bill ensures that communities serving as gateways to our 
nation's federal lands, including Park Service and Forest Service 
properties, have a voice in the federal planning process.
    Gateway communities can greatly benefit or be severely harmed by 
the decisions of federal land managers, so it is critical that their 
views are heard before land managers make final decisions. This is why 
H.R. 585 encourages a more open discussion between federal agencies and 
local communities during the federal planning process.
    For these reasons, Mr. Chairman, I encourage this Subcommittee to 
support H.R. 585, and move it favorably through the Committee process.

    Senator Craig. George, thank you very much. I think it's a 
thoughtful and appropriate piece of legislation.
    Are there any questions of the Congressman?
    Senator Wyden. Mr. Chairman, I want to commend the 
Congressman, as well. I think it's an excellent bill, and 
particularly for those of us in the West who see so often this 
situation with the Federal land managers. So often one hand 
doesn't know what the other hand is doing, and what you're 
talking about strikes me as very sensible. I commend you for 
it, and I'm going to do everything I can to help the 
legislation move.
    Mr. Chairman, because we've got an intelligence meeting, I 
think, with your consent, let me also just say a word or two 
about S. 2003. You and I have worked on this for a number of 
years, going back to our days working with Senator Gorton on 
this, to try to promote watershed enhancement. It seems to me 
we still have strong bipartisan support for our efforts. This 
may be caught up in a larger bill that is coming--or is now 
before the Senate Agriculture Committee, and I think we should 
do everything we can not to see this caught up in a larger 
bill, and end up held up. And, if possible, I'd like us to 
continue to retain our bipartisan jurisdiction on it, and pass 
S. 2003 as soon as possible. I think we'll hear from the Forest 
Service about some minor kinds of changes. And if Frank and 
Sarah can finish that today, we'll get another bill done on 
Sarah's watch.
    Thank you.
    Senator Craig. Thank you.
    Senator Thomas, any questions of the Congressman?
    Senator Thomas. Well, just in general, I guess, 
Congressman. I understand the importance of gateway communities 
and, of course, we have a number of those. On the other hand, 
we are supposed to have that relationship now, and I'm always 
concerned that additional laws like this might just cause more 
delay and more costs and so on. Are there additional 
requirements here? What would this require that shouldn't be 
happening now?
    Mr. Radanovich. Well, nothing more than what should be 
happening now. I guess in my history of--long history of going 
through a lot of superintendents in Yosemite--and I think this 
can be demonstrated in any other park--you just don't know what 
you're going to get with a superintendent or an administration 
change. And while the relationship, I think, between the 
county, Mariposa County, and the current park superintendent is 
excellent, it comes and goes. And what this does is just 
requires those Federal agencies to invite the local agencies to 
participate in the planning process from the beginning. They 
don't have to if they don't want to, but it requires them to 
make the ask. That's simply it.
    Senator Thomas. Well, I understand. I understand what 
you're saying. I just am a little concerned that some of the 
decisions we have to make now take a long time, and the more 
requirements that are there, the longer it takes to do these 
things. And a lot of people have involvement in these 
decisions, not just the gateways. So, I just raise the question 
of whether they'd require any special treatment, as opposed to 
everyone else.
    Mr. Radanovich. No. No, actually, no more treatment than 
anybody else. It's just that they're required to make them ask. 
That's all.
    Senator Thomas. Thank you.
    Senator Craig. Well, George, again, thank you very much for 
being with us today. We appreciate your time.
    Mr. Radanovich. Great.
    Senator Craig. And you can stay for the balance of the 
testimony, if you wish, by others. I suspect your schedule is 
as busy as ours.
    Mr. Radanovich. We've got an energy mark-up over in 
Commerce, so I'm going to head on over there. But, Larry, I 
appreciate the opportunity to come over and testify on this.
    Senator Craig. Well, go create some energy. We need it.
    Mr. Radanovich. Yes, sir.
    Senator Craig. Thank you.
    Mr. Radanovich. Take care.
    Senator Craig. We'll invite our first panel forward: Joel 
Holtrop, deputy chief, National Forest Systems, Department of 
Agriculture; and Chris Kearney, Deputy Assistant Secretary for 
Policy, Management and Budget, Department of Interior. Joel, 
we'll start with you. Please proceed.

STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF FOR THE NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to appear before you today to 
provide the Department's views on four bills.
    I submit my full testimony for the record and will provide 
you with this brief oral statement.
    S. 906, the Wildland Firefighter Safety Act--since the 
Department of Interior and the Department of Agriculture work 
closely together in fire management, we are providing a joint 
statement on this bill. S. 906 requires the Secretaries to 
track funds expended for firefighter safety and training 
programs, along with additional related provisions. The 
Departments are concerned that a budget line item may not 
achieve the desired oversight of safety efforts and would carry 
unnecessary administrative complexities. The Departments do not 
consider training costs an effective means of determining a 
firefighter's ability to perform safely. Required training, 
recurrent training, required experience, and job performance 
cross multiple budget activities and are extremely difficult to 
track at the budget line-item level. Federal and State agencies 
provide funding for national and advanced training academies, 
as well as training at more local levels. Virtually every 
firefighting training course includes some element of fire 
safety.
    For these reasons, the Departments do not support S. 906 in 
its present form. Rather than focus on budget structure, the 
Departments suggest an annual report, which would focus on 
measurable firefighter performance and efficiency of our safety 
and training practices and activities, would better assist the 
Departments' continual improvement of safety and performance, 
and would provide information to Congress in its oversight 
capacity.
    Indeed, actions are already underway to report to Congress. 
For fiscal year 2007, the Forest Service will report to 
Congress, as part of the national performance measures, the 
accident frequency rate for firefighter injuries during the 
suppression of fires under Forest Service jurisdiction.
    We are taking additional action to improve tracking of 
firefighter safety and training measures, including requiring 
all firefighters to meet minimum interagency requirements for 
training, experience, and physical fitness to perform a 
specific job; implementation of a computer system which 
documents training, on-the-job experience and certification for 
each Federal firefighter; establishing a process to ensure that 
training by firefighting contract associations meet Federal 
standards; implementing new contract provisions for 
standardized language assessment to ensure that there are no 
communication barriers that would contribute to unsafe 
conditions; and use of the Interagency Wildland Fire Leadership 
Development Program, which trains firefighters and managers in 
leadership values through courses designed to span careers from 
entry level through management and leadership levels.
    We believe that examining firefighter performance and 
safety as a whole, rather than simply tracking training costs, 
helps us to better assess overall quality and effectiveness of 
our programs. We welcome continuing oversight from Congress to 
help us make further progress in this area, and we believe that 
providing Congress an annual report on the performance and 
effectiveness of our overall firefighting program would produce 
the desired outcome.
    S. 2003, the Watershed Restoration and Enhancement 
Agreements Act--this bill would permanently authorize the use 
of watershed restoration and enhancement agreements that the 
Forest Service has successfully used with many partners since 
its original enactment and subsequent reauthorizations. 
Commonly referred to as the Wyden Amendment, this authority has 
resulted in improved, maintained, and protected ecosystem 
conditions and increased operational effectiveness and 
efficiency for national forests and adjacent lands.
    The Department supports enactment of S. 2003, and would 
like to work with the subcommittee on a short amendment to 
provide express authority for mutual benefit agreements as 
proposed by the administration.
    H.R. 585, the Gateway Communities Cooperation Act--this 
bill has various provisions relating to the way that the 
Departments of the Interior and Agriculture work with 
communities near the borders of certain agency lands.
    The Department agrees with the principles embodied by the 
legislation--namely, increased cooperation and collaboration 
with local communities in national forest management. In the 
past several years, we have made substantial progress in our 
ability to collaborate with communities, and we think that 
progress should be taken into account as the subcommittee 
considers this bill.
    The administration could support H.R. 585, but only if 
amended. We will submit a letter with recommended amendments 
shortly.
    The Departments would like to work with the subcommittee to 
continue to improve our service to gateway communities and 
assure that any legislation contributes to that goal.
    H.R. 3981, Land Exchange in Tahoe National Forest--this 
bill would allow for the exchange of certain National Forest 
System lands in the Tahoe National Forest under the procedures 
of the Small Tracts Act, because its cases would not otherwise 
fall under the requirements of that Act. The Department is not 
opposed to H.R. 3981.
    This concludes my statement, and I would be happy to answer 
any questions that you may have.
    [The prepared statement of Mr. Holtrop follows:]
   Prepared Statement of Joel Holtrop, Deputy Chief for the National 
        Forest System, Forest Service, Department Of Agriculture
    Mr. Chairman and members of the Subcommittee: Thank you for the 
opportunity to appear before you today to provide the Department's 
views on S. 906--Wildland Firefighter Safety Act of 2005, S. 2003--
Watershed Restoration and Enhancement Agreements Act of 2005, H.R. 
585--Gateway Communities Cooperation Act, and H.R. 3981--involving 
Tahoe National Forest land exchanges. I am Joel Holtrop, Deputy Chief 
for the National Forest System, USDA Forest Service.
                 s. 906 wildland firefighter safety act
    Since the Department of the Interior and the Department of 
Agriculture work closely together in fire management, the two 
Departments are providing a joint statement on S. 906, the Wildland 
Firefighter Safety Act. The bill would require the Secretary of 
Agriculture and the Secretary of the Interior to track funds expended 
for firefighter safety and training programs and activities and to 
include a line item for such expenditures in annual budget requests. 
This bill would also require the Secretaries to jointly submit a report 
on the implementation and efficacy of wildland firefighter safety and 
training programs and activities to Congress each year. In addition, 
the bill would direct the Secretaries to ensure that any Federal 
contract or agreement with private entities for firefighting services 
requires the entity to provide firefighting training consistent with 
qualification standards set by the National Wildfire Coordinating 
Group. The Secretaries would be further directed to develop a program 
to monitor and enforce compliance with this contracting requirement.
    The Departments are concerned that a budget line item may not 
achieve the desired oversight of safety efforts and would carry 
unnecessary administrative complexities. The Departments do not 
consider training costs an effective means of determining a 
firefighter's ability to perform safely.
    Furthermore, section 2(a)(1) of bill applies only to the Secretary 
of the Interior with respect to public land managed by the Bureau of 
Land Management. It's important to recognize that wildland fire occurs 
not only on public lands but also on the other Federal lands 
administered by the Secretary of the Interior through the various other 
agency heads.
    Required training, recurrent training, required experience, and job 
performance cross multiple budget activities and are extremely 
difficult to track at the budget line item level. Federal and state 
agencies provide funding for national and advanced training academies 
as well as training at more local levels. Virtually every firefighting 
training course includes some element of fire safety. For these 
reasons, the Departments do not support S. 906 in its present form.
    Rather than focus upon budget structure, the Departments suggest 
that an annual report, which would focus on measurable firefighter 
performance and the efficacy of our safety and training practices and 
activities, would better assist the Departments' continual improvement 
of safety and performance and would provide information to Congress in 
its oversight capacity. Indeed, actions are already underway to report 
to Congress. For fiscal year 2007, the Forest Service will report to 
Congress (as part of the national performance measures) the accident 
frequency rate for firefighter injuries during the suppression of fires 
under Forest Service jurisdiction. The Department of the Interior 
tracks and reports the number of firefighter injuries and the amount of 
time lost from firefighter injuries as a proportion of all time spent 
firefighting. This information is reported as part of the 10-Year 
Comprehensive Strategy Implementation Plan for Reducing Wildland Fire 
Risks.
    We are taking additional action to improve tracking of firefighter 
safety and training measures.
    As this Subcommittee is aware, after the investigations of fatal 
fires in the last 10 years, we re-examined our safety and training 
policies, practices, and performance and implemented numerous 
significant changes. These changes have been developed in cooperation 
with the Occupational Safety and Health Administration, the Department 
of the Interior and other interagency partners through the National 
Wildfire Coordinating Group. In addition, an audit by the USDA Office 
of Inspector General (OIG) in 2004 of the Forest Service firefighter 
safety program and in 2006 of firefighting contract crews provided 
recommendations that assisted the Forest Service and the Department of 
the Interior agencies in identifying areas for improvement. We have 
made significant progress in improving safety, training, certification, 
accountability, and reporting.
    The National Wildfire Coordinating Group (NWCG), made up of 
representatives from the Forest Service, Department of the Interior 
agencies, Tribes, and State forestry agencies, establishes minimum 
requirements for training, experience, physical fitness level, and 
currency standards for wildland fire positions. All participating 
agencies must meet these requirements for national mobilization. All 
firefighters--federal, tribal, state, local, or contract--carry a 
position qualifications document (known as a Red Card) that shows the 
firefighter has met all the training, experience, and physical fitness 
requirements to perform a specific job under NWCG standards. The Forest 
Service has augmented these standards to meet specific safety 
requirements for the Forest Service.
    Certification of each firefighter is the responsibility of the 
employing agency. Firefighters must successfully complete coursework 
and multiple training assignments before they are certified for 
positions. Individual firefighters are trained to meet unit, regional 
and national needs. Performance based qualification standards, training 
courses, annual training to maintain currency, drills, and demonstrated 
successful performance prepare firefighters for conditions they may 
encounter.
    I would like to give you an update of items we have improved in 
safety, training, certification, accountability, and reporting for 
firefighters and contract firefighting crews.
    The Incident Qualifications Certification System (IQCS), now fully 
operational, responds to .the need for accurate tracking of 
qualifications and centralized records as recommended in the 2004 USDA 
OIG report on firefighter safety. Training, on-the-job experience, and 
certification of each firefighter are documented and then added to the 
IQCS. Every federal firefighter must be qualified and in the system 
before they can be assigned by fire managers. State, local, and 
contract firefighters use different tracking systems.
    The 2006 OIG review of crew contract firefighting programs reported 
the need for program oversight and gave several recommendations for 
improvements. As a result, experience requirements have been included 
in the 2006 crew contracts and qualification records were reviewed 
prior to contract awards. The Forest Service is working with the 
Pacific Northwest Coordinating Group to establish a process to ensure 
contract associations' training meet the National Wildfire Coordinating 
Group standards. Also included in the 2006 crew contracts is a 
provision for standardized language assessment to ensure that there are 
no communication barriers that would contribute to unsafe conditions. 
The Forest Service is coordinating with other Federal agencies to 
identify counterfeit documents used to obtain employment on contract 
crews. In addition, temporary workers--that is, workers hired on a 
short-term basis during an emergency-must also meet agency 
certification requirements.
    The interagency Wildland Fire Leadership Development Program trains 
firefighters and managers in leadership values through a curriculum of 
courses designed to span the career of wildland firefighters from entry 
level through management and leadership levels. Individual firefighters 
and managers improve their leadership skills through self-directed 
continuing education efforts using the on-line resource 
(www.fireleadership.gov) to prepare themselves for the decision-making 
demands of firefighting.
    The Federal Interagency Firefighter Medical Qualifications and 
Standards program was developed by the Interagency Medical Standards 
Team under the direction of the National Fire and Aviation Executive 
Board. This program established medical qualifications, standards, and 
procedures to ensure that firefighters have an appropriate level of 
health and not be at unnecessary risk, or put other at risk, in 
performing arduous firefighter duties. The program is intended to 
ensure that sufficient information is available to make a medically 
sound judgment of whether an individual could safely perform the 
firefighter duties.
    Mr. Chairman and members of the Subcommittee, we believe that 
examining firefighter performance and safety as a whole, rather than 
simply tracking training costs, helps us to better assess overall 
quality and effectiveness of our programs. We welcome continuing 
oversight from Congress to help us make further progress in this area, 
and we believe that providing Congress an annual report on the 
performance and efficacy of our overall firefighting program would 
produce the desired outcome.
   s. 2003 ``watershed restoration and enhancement agreements act of 
                                 2005''
    This bill would amend Section 323 of the Department of the Interior 
and Related Agencies Appropriations Act of 1999 (commonly referred to 
as the ``Wyden amendment''), to permanently authorize the Secretary of 
Agriculture to use Forest Service appropriations to enter into 
cooperative watershed restoration and enhancement agreements with 
governments or private nonprofit entities and landowners to carry out 
activities on NFS lands or on non-Federal lands within the same 
watersheds. Agreements are authorized for the protection, restoration, 
and enhancement of fish and wildlife habitat and other resources and/or 
the reduction of risk from natural disaster on public or private land 
to benefit resources in the watershed. The current authorization 
includes provisions on terms and conditions regarding technical 
assistance, sharing of costs, ensuring that expenditures are in the 
public interest, and that the public investment on non-Federal lands is 
protected.
    The Department supports enactment of S. 2003, and would like to 
work with the Subcommittee on a short amendment to provide additional 
authority to more fully implement its provisions.
    The Forest Service has successfully used the Wyden amendment since 
its original enactment and subsequent reauthorizations. Benefits 
include improved, maintained and protected ecosystem conditions through 
collaborative administration and implementation of projects as well as 
increased operational effectiveness and efficiency through coordination 
of efforts, services, and products to accomplish the highest priority 
work.
    Of the many possible examples, work on the Siuslaw National Forest 
in Oregon illustrates the benefits of working across landscapes using 
this authority. Since 1998, the forest has implemented 26 projects, 
leveraging $321,000 in Federal investments with $387,000 in partner 
contributions to restore floodplains, riparian areas, and estuaries; 
install in-stream structures; monitor activities; and share 
information. Strategic use of this tool has brought a tremendous 
benefit to watersheds affecting National Forest System lands.
    Two bills have been introduced in the 109th Congress that contain 
similar language to this provision. Last September, the Department 
testified in strong support of H.R. 3818, which includes authority for 
watershed restoration and enhancement agreements as part of a 
comprehensive Forest Service partnership bill. H.R. 3818, entitled the 
``Forest Service Partnership Enhancement Act'', was based on the 
Administration's draft legislation transmitted to Congress under the 
same title. A similar bill, also with the same title, S. 2676, has 
recently been introduced by Senators Crapo and Lincoln.
    These bills contain authority--not included in S. 2003--that would 
be important to the Forest Service's future success to cooperatively 
carry out watershed restoration and enhancement agreements. That 
authority clarifies that watershed restoration and enhancement 
agreements are mutual benefit agreements. While the Department supports 
enactment of S. 2003, we would like the Subcommittee to consider the 
benefits of providing express authority for mutual benefit agreements 
as proposed by the Administration.
             h.r. 585--gateway communities cooperation act
    This bill directs the Secretary of the Interior or the Secretary of 
Agriculture to: 1) solicit the involvement of gateway community leaders 
in the development of land use plans, programs, regulations, or other 
decisions that are likely to have a significant impact on gateway 
communities; 2) provide summary materials and, on request, offer 
training sessions to officials of gateway communities on meaningful 
participation in development of plans, decisions, and policies; 3) on 
request, make available personnel to assist gateway communities in 
development of mutually compatible land use or management plans; 4) 
enter into cooperative agreements with gateway communities to 
coordinate the management of land use inventory, planning, and 
management activities; 5) coordinate plans and activities with other 
Federal agencies, when practicable; and 6) allow any affected gateway 
community the opportunity to be recognized as cooperating agencies 
under the National Environmental Policy Act of 1969.
    While the Department agrees with the principles embodied by the 
legislation--namely increased cooperation and collaboration with local 
communities in national forest management--we can accomplish these 
goals under current authorities. In the past several years, we have 
made substantial progress in our ability to collaborate with 
communities, and we think that progress should be taken into account as 
the Subcommittee considers H.R. 585. The Administration could support 
H.R. 585, but only if amended. We will submit a letter with recommended 
amendments shortly.
    This Administration strongly supports cooperative efforts, as 
reflected in Executive Order 13352, Facilitation of Cooperative 
Conservation, which calls for collaborative activity among federal, 
state, local, and tribal governments, private for-profit and nonprofit 
institutions, other nongovernmental entities and individuals. Last 
summer, the White House Conference on Cooperative Conservation convened 
stakeholders from around the nation and from all walks of life to 
discuss ways of facilitating collaborative work. At that conference, 
Secretary of Agriculture Mike Johanns affirmed that, ``Conservation 
today is no longer about conflict. Instead, it's about cooperation, 
about partnerships, about collaborative solutions from the bottom up.''
    The Department is committed to building and maintaining strong, 
mutually beneficial relationships with communities, including full 
participation of communities in land management planning decisions. The 
National Forest Management Act, the National Environmental Policy Act, 
the Federal Advisory Committee Act, the Healthy Forests Restoration 
Act, among other statutes, provide a framework for including 
communities in agency planning. Resource Advisory Committees (RACs), 
established under the Secure Rural Schools and Community Self-
Determination Act of 2000 have successfully brought together community 
members to use collaborative approaches to resource management. RACs 
are also being established to implement provisions of the Federal Lands 
Recreation Enhancement Act.
    In addition, the Forest Service implementation the 2005 Planning 
Rule is improving the way it conducts land management planning. The 
2005 Planning Rule emphasizes public participation and collaboration. 
In places where the new process is being used, communities have 
responded enthusiastically by joining collaborative work groups, 
participating in field trips and engaging at open houses.
    For example, the Kootenai National Forest in western Montana and 
the Idaho Panhandle National Forest in northern Idaho are expected to 
release their proposed land management plans under the 2005 Planning 
Rule today. In developing this strategic vision for future land 
management, they convened over two hundred community-based workgroup 
meetings and many additional open houses and field trips. Forest 
Service personnel consulted with state and federal agencies as well as 
forty-two county commissioners, some of whom participated in the work 
groups. Throughout the process, government-to-government consultation 
occurred with seven Indian tribes. There will always be diverse 
opinions about the future of public lands, but we have already seen the 
benefits of facilitating interaction of stakeholders at the same table, 
working through issues together.
    We currently have authority to take actions covered by this bill. 
Section 2(d)(7), for example, would allow any affected gateway 
community the opportunity to be recognized as a ``cooperating agency'' 
under the National Environmental Policy Act. The Departments currently 
have authority to designate cooperating agencies, under Council on 
Environmental Quality regulations (at 40 CFR 1501.6). These regulations 
specify that the cooperating agency must have jurisdiction by law or 
special expertise. A cooperating agency has specific responsibilities 
for contributing to the environmental analysis process.
    The Department welcomes the opportunity to better coordinate our 
planning efforts with those of gateway communities. Better coordination 
would complement the goals of public land management to maintain 
healthy and sustainable ecosystems for current and future generations. 
We have made progress in actively pursuing collaboration with all 
communities of interest and place under our current authorities. Some 
of the provisions of the bill may have the unintended consequence of 
diminishing our ability to collaborate with a wide array of 
stakeholders. For example, providing special status to one community 
and not another could result in the appearance of differential 
treatment for affected communities.
    Forest Service Chief Dale Bosworth has made it his goal to reduce 
what he has termed ``process predicament''. We are concerned that H.R. 
585 could create additional process, and we would like to work with the 
Subcommittee to avoid this outcome.
    The Departments would like to work with the Subcommittee to 
continue to improve our service to gateway communities and assure that 
any legislation contributes to that goal.
             h.r. 3981--land exchange tahoe national forest
    The Department is not opposed to H.R. 3981.
    H.R. 3981 would allow for the exchange of National Forest System 
lands (NFS) on the Tahoe National Forest with lands of the Christensen 
and McCreary families. The proposed exchanges are not authorized under 
the Small Tracts Act because, in one case the family's tract does not 
meet the law's requirements of innocent encroachment and in the other 
case the family's tract does not qualify as a mineral survey fraction.
    The Christensen exchange would involve seven acres of non-federal 
lands being exchanged for seven acres of federal lands. Both parcels 
are located within the North Yuba River Corridor.
    The McCreary exchange would involve less than one acre of non-
federal land being exchanged for less than one-acre of federal land. 
Both parcels are located adjacent to the town of Downieville, 
California. The non-federal parcel would provide valuable public trail 
access along the North Yuba River, if acquired by the Forest Service.
    This concludes my statement, I would be happy to answer any 
questions that you may have.

    Senator Craig. Joel, thank you very much.
    We've just been joined by our colleague, Maria Cantwell. 
Would you wish to make any opening comment or comments in 
relation to any of the bills, especially S. 906, before we 
proceed?
    Senator Cantwell. Mr. Chairman, I'll just get right to 
questions whenever appropriate.
    Senator Craig. Thank you very much.
    Now we'll turn to you. Chris, please proceed.

  STATEMENT OF CHRIS KEARNEY, DEPUTY ASSISTANT SECRETARY FOR 
   POLICY, MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Mr. Kearney. Thank you, Mr. Chairman.
    Mr. Chairman and members of the subcommittee, good 
afternoon. Thank you for the opportunity to present the 
Department's views on H.R. 585, the Gateway Communities 
Cooperation Act.
    The administration could support H.R. 585, but only if 
amended to address concerns that we've described in our 
testimony. We strongly support the bill's goals to promote 
communication, cooperation, and coordination between Federal 
land management Bureaus and the local communities that may be 
affected by the decisions of those Bureaus, but we'd like to 
work with the subcommittee to ensure that these goals are 
achievable and accomplished in an effective and efficient 
manner. We'll be submitting a letter jointly with the Forest 
Service with those recommendations shortly.
    H.R. 585, among other things, would require Federal 
agencies to involve officials from impacted communities early 
in the development of Federal plans, programs, regulations, and 
decisions, and provide local officials with plain-English 
summaries of those assumptions, purposes, goals, and objectives 
of decisions and any anticipated impacts on the communities. It 
would also further authorize cooperative agreements and require 
greater coordination among the agencies in engaging gateway 
communities in their planning process.
    We realize that the resource management decisions we make 
can greatly impact local communities and the people who live in 
them. Often, these impacts are especially felt by gateway 
communities, including those on tribal trust land, and are 
adjacent to our Federal lands. As a result, we realize that we 
must work in partnership with the people who live on the 
private land and tribal lands that border our parks, our 
refuges, and other Federal lands, and work on--and who also 
work on those lands or who have access to resources on them.
    Mutual benefits flow from cooperating with these 
communities. Gateway communities often take on additional 
infrastructure and environmental duties that come with visitors 
headed to nearby Federal lands. Additionally, some of these 
communities may also incur costs for additional services, such 
as law enforcement, search and rescue, public works. These 
additional costs, however, may also be offset by the increased 
employment income and tax revenue.
    Given this close relationship with gateway communities, the 
Department and the Bureaus have made it a priority to ensure 
that we are actively working to engage those communities in our 
planning process.
    I'd like to take a moment to share with you the 
collaborative practice of BLM, the Fish and Wildlife Service, 
and the Park Service, as well as some--just an example or two 
of some of the successful projects we've undertaken in 
collaboration with those communities.
    Under current practice, the agencies and the--all the 
Department Bureaus already invite State, tribal, and local 
entities, in addition to Federal agencies, to participate as 
cooperating agencies during development of environmental impact 
statements under NEPA. Our departmental guidance sets forth the 
requirement to invite the participation of these entities, 
along with more specific guidance on the establishment of the 
relationship, including the development of a memorandum of 
understanding concerning respective roles, assignment of 
issues, schedules, and staff assignments.
    The Department incorporates this requirement in guidance 
for application to all Bureaus in June 2005, shortly after BLM 
became the first Federal agency to promulgate land-use planning 
regs into requiring invitations to eligible gateway communities 
to participate as cooperating agencies and for environmental 
impact statements for land-use plans.
    One quick example of a gateway community project that BLM's 
been involved in is in the gateway community of Sonoita, 
Arizona. Local citizens formed the Sonoita Valley Planning 
Partnership, which developed visions, goals, and desired future 
conditions for the areas. BLM then incorporated those 
objectives as the foundation for the resource management plan, 
thus providing the community with the means to articulate and 
achieve its goals through the management of the natural 
conservation area.
    The Park Service and the Fish and Wildlife Service also 
have examples that are included in my testimony, which I won't 
get into, which also illustrates some of the success stories 
we've had with cooperating with local communities.
    Through many of these efforts--these and other efforts, the 
Department is working to ensure that all of its management and 
policy decisions are made using a collaborative approach. While 
we believe that it can positively promote this goal to more 
effectively communicate, coordinate, and cooperate with gateway 
communities, we do have a few concerns, as well as technical 
concerns. And, in the interest of time, as I say, I will not 
get into them now, except to say--I'll highlight one, for 
example, where we think the definition of ``gateway community'' 
could be better defined and clarified and strengthened a bit.
    It is also worth noting that there are other areas 
throughout the bill, as it relates to technical assistance and 
other matters that the bill touches on, that we think, in 
working with the subcommittee, we could address those issues 
and reach a mutual agreed conclusion.
    Thank you, Mr. Chairman, for your time this afternoon.
    [The prepared statement of Mr. Kearney follows:]
 Prepared Statement of Christopher Kearney, Deputy Assistant Secretary 
     for Policy, Management And Budget, Department of the Interior
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the Department of Interior's views on H.R. 585, 
the ``Gateway Communities Cooperation Act.''
    The Administration could support H.R. 585, but only if amended to 
address concerns cited below. We strongly support the bill's goals to 
promote communication, cooperation, and coordination between federal 
land management bureaus and the local communities that may be affected 
by the decisions of those bureaus, but would like to work with the 
Subcommittee to ensure that these goals are achievable and accomplished 
in an effective and efficient manner. We will submit a letter with 
recommended amendments shortly.
    H.R. 585 would require federal agencies to involve officials from 
impacted communities early in the development of federal plans, 
programs, regulations and decisions and to provide local officials with 
plain-English summaries of the assumptions, purposes, goals, and 
objectives of decisions, and any anticipated impacts on the community. 
H.R. 585 would require the Secretary to provide training sessions on 
agency planning processes and participation opportunities and to make 
available federal personnel to assist gateway communities in the 
development of land use plans. H.R. 585 would further authorize 
cooperative agreements and require greater coordination among federal 
agencies in engaging gateway communities in their planning processes. 
Finally, H.R. 585 would direct the Secretary to allow gateway 
communities ``the opportunity to be recognized'' as cooperating 
agencies under the National Environmental Policy Act (NEPA).
    The Department's bureaus manage more than one out of every five 
acres of land in the United States, with most of these lands in the 
West. For example, the Department manages 72 percent of Nevada, almost 
50 percent of Utah, and 62 percent of Alaska. Lands under our 
jurisdiction include vast multiple-use areas, and our bureaus host 
almost half a billion visitors a year, creating economic engines for 
communities across the country.
    Population growth and economic expansion have increased pressures 
on our undeveloped land, water resources, and wildlife. While countless 
species depend on the land to sustain life, families depend on the land 
for community and economic well-being. We realize that the resource 
management decisions we make can greatly impact local communities and 
the people who live in them. Often these impacts are especially felt by 
``gateway'' communities--including those on Tribal Trust Lands--that 
are adjacent to our federal lands. As a result, we realize that we must 
work in partnership with the people who live on the private and tribal 
lands that border our National Parks, National Wildlife Refuges, and 
other federal lands, and work on those lands or have access to 
resources on those lands.
    Mutual benefits flow from cooperating with these communities. 
Gateway communities often take on the additional infrastructure and 
environmental duties that come with visitors headed to nearby federal 
lands. This has the effect of reducing the pressure on federal 
resources while stimulating gateway economic growth and creating jobs 
in those communities. For example, according to a study entitled, 
Banking on Nature 2004: The Economic Benefits to Local Communities of 
National Wildlife Refuge Visitation, nearly 37 million people visited 
national wildlife refuges in 2004, creating almost 24,000 private 
sector jobs and producing about $454 million in employment income. 
Recreational spending on refuges generated nearly $151 million in tax 
revenue at the local, county, state and federal level. Some of these 
communities experience unusual pressures and problems brought about by 
their popularity as entry points for visitors onto federal lands. 
Additionally, some of these communities may also incur costs for 
additional services such as law enforcement, search and rescue, and 
public works. These additional costs, however, may be offset by the 
increased employment income and tax revenue.
    Given this close relationship with gateway communities, the 
Department and the bureaus have made it a priority to ensure that we 
are actively working to engage gateway communities in our planning 
processes. We would like to share with you the collaborative practice 
of the Bureau of Land Management (BLM), the National Park Service (NPS) 
and the U.S. Fish and Wildlife Service (FWS) as well as some specific 
examples of successful projects undertaken in collaboration with 
gateway communities.
    Under current practice, the BLM, the NPS, and the FWS and all of 
the Department bureaus already invite state, tribal, and local 
entities, in addition to federal agencies, to participate as 
cooperating agencies during development of an environmental impact 
statement under NEPA. Existing Department-wide guidance at 516 DM 2.5 
(Departmental Manual) sets forth the requirement to invite the 
participation of these entities, along with more specific guidance on 
the establishment of the relationship, including the development of a 
memorandum of understanding concerning respective roles, assignment of 
issues, schedules, and staff commitments. The Department incorporated 
this requirement and guidance for application to all bureaus in June 
2005, shortly after the BLM became the first federal agency to 
promulgate land use planning regulations requiring invitations to 
eligible gateway communities to participate as cooperating agencies on 
environmental impact statements for land use plans. The Council on 
Environmental Quality (CEQ) regulations and guidance are utilized by 
all federal agencies to engage the participation by state, tribal, and 
local entities as cooperating entities during the NEPA process.
    Through collaboration and partnerships, the BLM determines how best 
to manage public lands to meet the needs of both local communities and 
the Nation as a whole through the planning process. This entails the 
BLM working with individuals, communities, and governments from the 
earliest stages and continuing through the land use planning process to 
address common needs and goals within the planning areas.
    Some examples of how the BLM has successfully worked with gateway 
communities include the following:

  <bullet> The Sand Flats Agreement--Under a 1994 agreement among the 
        BLM, Grand County, and the state of Utah concerning a 7,000 
        acre recreational area outside Moab, Utah, fee collection was 
        turned over to the county, and the receipts were made available 
        to the county for use in managing, providing educational 
        services, and policing the highly popular recreational area. 
        The BLM and its visitors have a signature recreation area, and 
        the county has been able to control tourism in a way compatible 
        with the wishes of its local citizens. The agreement has also 
        resulted in a more vigorous tourist trade to benefit the local 
        economy.
  <bullet> Las Cienegas National Conservation Area--In the gateway 
        community of Sonoita, Arizona, local citizens formed the 
        Sonoita Valley Planning Partnership (SVPP), which developed 
        visions, goals and desired future conditions for the area. BLM 
        then incorporated the SVPP objectives as the foundation for the 
        Las Cienegas Resource Management Plan (2003), thus providing 
        the community with the means to articulate and achieve its 
        goals through the NCA's management.

    The NPS also emphasizes participation of communities in the wide 
variety of planning efforts it undertakes. During development and 
updates of each park unit's General Management Plan, NPS typically 
initiates the process by engaging in extensive outreach with affected 
communities by such means as giving presentations at civic group 
meetings and holding open houses. The NPS has produced a video that is 
often used at the meetings to explain the planning process. When NPS 
undertakes studies that have been authorized by Congress, such as 
studies of potential new park units, national trails, wild and scenic 
rivers, and national heritage areas, NPS engages all interested 
entities, including local communities, in a highly collaborative public 
process in effort to identify the best alternatives for preserving, 
managing, and interpreting resources. These efforts are consistent with 
Director's Order 75A, Civic Engagement and Public Involvement 
(strengthened and reissued in 2003), which recognizes the strong 
interest of gateway communities in NPS actions and articulates our 
commitment to collaborating with interested parties.
    Some examples of how the NPS has successfully worked with gateway 
communities include the following:

  <bullet> Zion National Park--Zion National Park and the gateway 
        community of Springdale, Utah have established a mutually 
        beneficial partnership through the creation of the Zion/
        Springdale transportation system. The system has enabled the 
        town to draw customers to local businesses by providing parking 
        and shuttle stops outside the park and has provided the park 
        the benefits of decreased traffic congestion and pollution.
  <bullet> Grand Teton National Park--Grand Teton National Park and the 
        gateway community of Jackson Hole and Teton County, Wyoming 
        partner for search and rescue, major disaster and fire 
        response. The park also collaborated with the chamber of 
        commerce on a branding and marketing program called 
        ``Respecting the Power of Place,'' which reinforces a 
        commitment to foster both conservation and commerce in the 
        Jackson Hole area.

    Through a highly collaborative process, the FWS is currently 
working to complete Comprehensive Conservation Plans (CCP) for 517 
National Wildlife Refuges and 37 Wetland Management Districts by 2012, 
as mandated under The National Wildlife Refuge Improvement Act of 1997.
    A CCP provides a vision for the next 15 years and ensures that each 
unit is managed to fulfill its individual purpose and the National 
Wildlife Refuge System mission. CCPs examine opportunities for 
facilitating compatible wildlife-dependent recreation, such as hunting, 
fishing, wildlife observation and environmental education. CCPs use 
sound science to establish achievable goals, objectives, and outcomes. 
FWS had completed CCPs for 107 of 554 refuge and wetland management 
units as of September 30, 2005 and expected to complete CCPs for 92 
units in FY 2006 and 49 units in FY 2007.
    The FWS has integrated community and public participation into the 
CCP process. Prior to and during preparation of a CCP, FWS seeks and 
subsequently analyzes comments and concerns from federal, tribal, 
state, and local governments and private landowners concerning land 
management issues that may impact or relate to the refuge. A draft CCP 
is released to the public for comment, with copies provided to the 
interested entities. The FWS reviews and analyzes the comments, and a 
final CCP is released to the public. Following the adoption of a final 
CCP, FWS continues to improve and update the plans through annual 
reviews.
    Some examples of how FWS has successfully worked with gateway 
communities and some of their over 200 Friends groups include:

  <bullet> J.N. ``Ding'' Darling National Wildlife Refuge--The Refuge, 
        the Ding Darling Wildlife Society (Society), the City of 
        Sanibel, Lee County, and other interested entities work 
        together on a variety of efforts that result in better services 
        for the more than 850,000 visitors to the refuge. Such 
        collaborative efforts range from addressing water quality 
        issues on the island, Ding Darling Days, and developing and 
        constructing the state-of-the-art education center on the 
        refuge.
  <bullet> Bosque del Apache Refuge--The Refuge and the Friends of 
        Bosque Del Apache Refuge have worked closely with the City of 
        Socorro, New Mexico for 18 years to produce the highly attended 
        ``The Festival of the Cranes.'' This refuge based event 
        celebrates the annual return of the sandhill cranes and 
        numerous other species of birds that come to the refuge for the 
        winter.

    Through these and many other efforts, the Department is working to 
ensure that all of its management and policy decisions are made using a 
collaborative approach.
    While the Department believes that H.R. 585 can positively promote 
this goal to more effectively communicate, coordinate, and cooperate 
with gateway communities, we do have a few concerns as well as 
technical issues with the bill. To address these issues, we plan to 
work with the U.S. Forest Service on a followup letter to the 
Subcommittee with specific suggested amendments that we believe will 
strengthen and clarify the bill. We would like to briefly highlight 
some of our concerns with H.R. 585.
    First, we are concerned about the definition provided for gateway 
communities in section 2(c)(1) and believe it could be strengthened. As 
drafted, it is not clear what constitutes a gateway community, and it 
could vary greatly depending on the state in which the gateway 
community is located. The head of the tourism office for the state also 
may not be the appropriate individual to make the determination of 
whether a community is significantly affected--particularly if the 
management decisions involve land uses that do not involve recreation. 
For these reasons, we strongly recommend an amendment to provide that 
the Secretary, in consultation with the state, determines whether a 
local government constitutes a gateway community for the purposes of 
this bill. The amendment would clarify that the relevant Secretary has 
the responsibility to ensure that similarly affected communities in 
different states are provided with similar opportunities. It also would 
ensure that the bill does not limit consultation to a state tourism 
office, but allows for consultation with the appropriate state contact, 
depending on the circumstances.
    Second, we recommend revisions to section 2(d)(3), which mandates 
the Secretary to provide training sessions at the request of the 
gateway community. We believe it is important to improve communication 
and provide clear information about agency processes and opportunities 
to participate in planning. However, this section is too restrictive. 
We believe that the level of knowledge about an agency's planning 
process can vary greatly from community to community. We suggest 
language that would allow for the flexibility of providing a variety of 
training materials and tailoring the federal response to the gateway 
community's request depending on the level of familiarity particular 
officials have in federal planning processes. For example, in some 
situations, an official may prefer to be provided written summaries of 
the planning process and the opportunities to participate rather than 
receive formal training sessions.
    Third, we are concerned about the provision in section 2(d)(4), 
which mandates that federal personnel take temporary work details to 
gateway communities to assist with planning efforts. We would like to 
work with the Subcommittee to find effective ways to provide 
assistance. The provision could entail not only federal planning 
efforts but state and local planning efforts. We believe this provision 
is not feasible, could result in competition among gateway communities 
for limited federal personnel, and could result in significant delays 
of federal projects as federal personnel are diverted from their 
planning duties. BLM estimates that approximately 4,000 communities are 
within, abut, or are adjacent to significant BLM-managed areas. The 
number of gateway communities that would be eligible to make the 
request for technical assistance is likely to far exceed the number of 
federal planning experts who would be available in the field offices to 
provide the assistance. In a time of austere budgets, federal agencies 
must focus limited resources on effectively managing our current 
responsibilities.
    Fourth, we believe that the process for communicating an interest 
in participating as a cooperating agency and the guidelines for such 
participation in section 2(d)(7) is unclear, as drafted. We suggest an 
amendment that delineates the process by which the Secretary would 
notify potentially interested communities of a land use planning issue 
and by which a gateway community would communicate with the Secretary 
its interest in participating as a cooperating agency. During 
development of land management plans, Department bureaus already 
regularly offer affected states, tribes, and localities participation 
as cooperating agencies, and the CEQ regulations and guidance, the 
Department Manual and some agency regulations and guidance include 
procedures for such engagement. Thus, we suggest an amendment to ensure 
that these same authorities, in addition to NEPA, guide participation 
by gateway communities. We also would like to further discuss whether 
this section may be more appropriately incorporated into other sections 
that more generally address the engagement of gateway communities.
    Looking back, one of the ideas behind the National Environmental 
Policy Act was that informed decision-making would result in the making 
of better decisions. The Department believes that H.R. 585, if amended 
as described in this testimony, can promote improved land management 
decisions accruing to the benefit of private and public lands and the 
people who live and work on them. Peaceful problem-solving and 
partnerships are keys to good land management. H.R. 585 promotes this 
through better communication, coordination, and cooperation between 
federal land and gateway communities and their citizens. We appreciate 
the opportunity to present these suggested amendments and look forward 
to working with the Subcommittee further on this important bill.
    Mr. Chairman, this concludes my statement. I am happy to answer any 
questions you or other members of the Subcommittee may have.

    Senator Craig. Chris, thank you.
    Thank you both for your testimony. Let me begin the 
questioning.
    Specific to H.R. 585, the gateway communities, I'm going to 
ask this question, or questions, of both of you, to get your 
reaction. Why do you think these communities have pushed for 
legislation to force agencies to establish neighborly 
relationships with them?
    Chris?
    Mr. Kearney. I guess I would answer that by saying, well, 
our approach to working with communities has been pretty 
comprehensive, in terms of gateways and other communities 
across the country, under the broad-banner approach we have had 
to cooperative conservation, and cooperative conservation 
efforts, most recently noted in the President's Executive Order 
on Cooperative Conservation, which was issued in 2004, which 
was also followed up by a very successful White House 
Conference on Cooperative Conservation in which folks from 
across the country came together and shared examples and 
success stories of work with Federal agencies in partnership 
and collaboration, but which also had challenges remaining, and 
that would--provided a great platform for it.
    In recent years, in that spirit, we have undertaken a 
number of efforts to ensure that we are working in 
collaboration and partnership with communities, with States, 
with tribes, and an array of folks that are affected by our 
work.
    A couple of examples I would highlight for you that folks 
may not be away of is that we offer training programs, 
particularly the BLM, that are provided for Federal managers 
and for local community representatives on how to do 
partnering, and how to engage in collaboration, and deal in 
tools associated with negotiating and coming to consensus and 
agreement, that allow them to draw out the issues associated 
with consensus, and how to get to a consensus. This has been 
met with a great deal of success by the BLM communities and 
others, and that program continues to be expanded.
    A second recent example is something that came out of the 
White House Conference that each of the five agencies that 
sponsored it highlighted, which is essentially seeking to 
change, fundamentally, how we train, reward, and--train, 
reward, and hire individuals with respect to the area of 
collaboration and cooperation, a forestry partnership approach 
to partnership. For example, we are working to add behavioral 
characteristics of individuals in both--for purposes of 
promotion and in hiring that take into consideration their 
experience and ability to do--efforts in the area of 
partnership and collaboration that they've done, not simply--in 
addition to education. Typically, what happens is, you look at 
someone in terms of hiring with an eye toward their strict 
educational background or when they're being promoted, and how 
many years in that position. We're actively working now, the 
agencies are, to establish a process by which we'll take into 
consideration how they actually--what kind of activities 
they've engaged in or have the skills set to--in the area of 
collaboration and partnership.
    Another important area of things that we've done is we've 
also expanded, dramatically, our cooperative conservation-
oriented grants. There's been about a 50-percent increase in 
those grants in the past 5 years. Many of those grants, such as 
the Partners for Fish and Wildlife and others, focus on 
partnerships and matching dollars and collaboration with local 
communities and the like in carrying out conservation projects.
    Probably one of the--another example that I'd highlight in 
some detail, if given the opportunity, has to do with some of 
the matters related to training.
    So, I think those and other activities we engage in have 
really improved and expanded the relationship we have with 
communities and others. We certainly think there always could 
be more work to do. There certainly have been areas and 
challenges in the past where there have been times where the 
agencies have been somewhat inward-looking. And we realize that 
there are still challenges, but we think we're moving in the 
right direction administratively, and that this bill, if 
reflecting the changes we talked about, can be another tool in 
the toolkit, if you will, of advancing our efforts toward 
cooperative conservation approaches.
    Senator Craig. OK. Joel, anything you'd wish to add to 
that? That was a fairly comprehensive answer, at least from the 
Department of the Interior.
    Mr. Holtrop. It is. And I'll just add, briefly, that--maybe 
just a couple of things from the Forest Service's perspective 
which add to the things that Mr. Kearney has already mentioned.
    One is, we also feel like we have improved our ability to 
work with communities. And it's something that we have been 
stressing over time. As the Department of the Interior just 
stated, even as we go through the process of selecting who are 
going to be our district rangers, who are going to be our 
forest supervisors, one of the most important criteria that we 
use to make those are their abilities and their skills in 
community relations and their obvious inclination toward 
working with communities. And we think we're doing better at 
that.
    We also have a new planning rule that was established in 
2005 which stresses community outreach and community 
involvement in our planning process. And today, as we speak, 
two forest plans--one, the Kootenai National Forest in 
northwest Montana, and the other, the Idaho Panhandle National 
Forest, in northern Idaho--are both coming out with their 
proposed plan under the 2005 planning rule. And those plans 
represent over 200 public community workshops and working with 
community leaders such as county commissioners and others. I 
think those are reflective of the types of progress that we're 
making, and that type of progress, I think, again, should 
inform our discussions and our thoughts about this piece of 
legislation.
    Senator Craig. Thank you both.
    Let me turn to my colleague from Wyoming, Senator Thomas.
    Craig?
    Senator Thomas. I guess I just would say, again, as I think 
I said before, I certainly promote and want to work for the 
coordination, but I don't want to pass bills that aren't 
necessary. Do you think we need this bill to finish this job?
    Mr. Kearney. I think with the kinds of changes we have 
talked about, clarification of what the definition of a 
``gateway community'' is, where an agency and the State would 
come to an agreement on what that is--because there are a lot 
of issues and factors that go into gateway community and what 
it is, and so forth, that, among other things, would add, sort 
of, to that toolkit, if you will. But I think we share, in 
spades, your view of not--ensuring that we don't pass 
unnecessary legislation or add processes that we don't need to. 
We're looking to streamline and consolidate and make our 
efforts to outreach with communities more effective, not less 
so.
    Mr. Holtrop. Again, I don't have much to add to that, other 
than to also acknowledge that the spirit of this legislation is 
one that we certainly agree with. And anytime that there is a 
tool that can be added, that would help us be more responsive 
to our--in our interrelationships with communities, that's an--
it's an important thing for us. We do believe that we have a 
lot of authorities, a lot of tools, and a lot of will to do 
that. With our given authorities, if a piece of legislation 
would improve our opportunities to do that without getting in 
the way of us being able to----
    Senator Thomas. Well, that's what we're asking you.
    Mr. Holtrop [continuing]. Make the progress we want to 
make, that's what we want to watch for.
    Senator Thomas. We're asking you that. Is that the case?
    Mr. Holtrop. Again, we are going to be proposing some 
amendments to this legislation that we think would address the 
concerns that we have.
    Senator Thomas. OK, thank you.
    Senator Craig. Senator Cantwell, questions of the panel?
    Senator Cantwell. Thank you, Mr. Chairman. And thank you 
for scheduling this hearing.
    Mr. Holtrop, thank you for being here, and thank you for 
your testimony. I have had a chance to review most of it. I am 
so sorry for getting here late for the oral presentation of 
that. But in your testimony, you say that you're supportive of 
reporting requirements as it relates to S. 906, and that it's 
just a matter of--you might have different requirements in 
reporting provisions. What are you thinking about, as far as 
the reporting requirement?
    Mr. Holtrop. What we're proposing is reporting requirements 
that are comprehensive in nature, that talk about, ``What are 
the outcomes?'' and ``What are the results of the work that we 
have done, in terms of improving our fire safety programs, in 
terms of improving the training related to fire management?'', 
and that we would report on what progress has been made. For 
instance, we have information now available to us that we did 
not have in the past because of our response to some of the 
previous Inspector General reports, et cetera, that we have 
been responding to, that we now have the ability to provide 
information on the number of firefighter injuries that have 
occurred in a season, or close calls and things like that. And 
we believe that we can report, at the end of the season, to 
this committee, the types of progress that we have made, the 
types of trends that we're having, that we think would be 
effective in helping us manage our overall safety program in 
fire, and help you do the appropriate oversight.
    Senator Cantwell. So, outcomes, specifically. Is there 
anything else that you're----
    Mr. Holtrop. There are--I mean, there's a lot of detail 
associated with that, that I think that we could provide. And I 
think we can continue to look for additional things that ought 
to be provided to make sure that the objectives that we share, 
such as providing for a safer fire management program, that 
we're meeting that. So, I think, again, trends, what has 
happened, in terms of what has happened on the fireline, what 
has happened in terms of occurrences as the year progresses, 
that's the type of thing that we're talking about.
    Senator Cantwell. One of the things that the Inspector 
General report focused on was the wildland firefighters. I 
think it was \1/3\ of the contract firefighters, they believe, 
did not meet the National Wildfire Coordinating Group 
standards. In fact, they found that the Forest Service really 
didn't have a good procedure to review those qualifications and 
records. Do you see this as a hole in the process? And do you 
think that the Forest Service is putting a plan in place, long 
term, to monitor the contract work and the success of that 
contract work?
    Mr. Holtrop. I do. In March 2006, the Office of the 
Inspector General completed their review of our crew contract 
firefighting programs, and they had five recommendations for 
us. And we agreed that if we were to respond positively to each 
of those recommendations, we would be responding, as 
appropriately, to making sure that our contract crews were 
meeting the types of safety requirements, the same requirements 
that we require of our hired firefighters, that we would be 
requiring the same things of our crews. We believe that we are 
responding positively to each of those recommendations and are 
confident that that will help us.
    Senator Cantwell. And this would be something that you 
would also monitor and report on, the efficiencies of those 
contracts and successes and----
    Mr. Holtrop. Yes.
    Senator Cantwell. I'm perplexed over the aspect of this 
legislation where we would like to track the amount of money 
that's actually being spent on training. And the reason that 
we're interested in this is, we want to make sure that we 
understand dollars to support the training effort, what we're 
spending, that it doesn't--that it's not a category that gets 
shortchanged. I think at one point in time we even got a number 
that was something like $29 million over the last several years 
had been spent on this effort. But that's one aspect of the 
bill you don't support, and it's one aspect that I think I've 
gone around with Secretary Rey many, many times on, trying to 
get access to that information. And in your testimony, you say 
you don't consider training costs as an effective means of 
understanding this issue.
    And so, when I think of the complexity of budgets that we 
have on so many fronts, when I think of the Hanford clean-up or 
nuclear waste, other things that our Energy Committee has to 
deal with, I think those are--that's complex. What's so complex 
about tracking both the contract work and the investment in 
training dollars for the noncontract firefighters? I still 
don't understand why this is such a hard thing for the agency 
to just say, ``This is what we're spending on training and 
education.''
    Mr. Holtrop. I'll try to respond to that helpfully. Before 
I do so, I want to express that, as somebody who has been 
intimately involved in the follow-up to some of these fire 
fatalities, including speaking at the dedication ceremony on 
the 1-year anniversary of the Thirty Mile Fire, and speaking to 
the families of the victims of that----
    Senator Cantwell. Thank you for doing that. We appreciate 
it.
    Mr. Holtrop  It was an honor to be able to do so, and it 
was--and in that event, I felt like I made a commitment to 
those families that we would learn from the experiences that 
their children and their siblings and their spouses had 
experienced, that we would learn, and we would never forget the 
sacrifices that they made.
    And so, I also want to say that I appreciate your 
persistence in this, and your dedication to also finding a way 
to make sure that the outcome of this is something--that we 
have a safer firefighting organization. I'm also a father of a 
firefighter. My daughter fights fires and will be leaving later 
this month to do the same thing. And so, from that perspective, 
I also appreciate that, and I want you to know that I 
appreciate it a great deal.
    So, I think we have the same objectives in mind, and I 
think we both care about it deeply. I think it's just a 
question of what is the right means to take, in order to reach 
the objective that we share.
    I think the concern that we have over the tracking of 
things such as training costs and safety training costs is 
safety is integral to everything that we do in firefighting. 
Every one of our training programs is replete with safety. 
There are questions that we would ask around--the reason we 
have a system that provides for--these are the requirements we 
have for what an engine is and what it takes--what are your 
requirements for operating that engine. The reason we do that 
is, there's safety associated with knowing what we get when we 
order an engine. When we get additional communication 
equipment, there's reasons that we get additional communication 
equipment. Those are safety related. It's hard for us to tease 
out safety from the overall basic work that we do in fire 
management. So, that's one of the concerns that we have.
    There are also--and so, the difficulties there----
    Senator Cantwell. Mr. Holtrop, if we modified that word to 
make sure that we're adequately characterizing what we're 
looking for--because, yes, there's, I'm sure, communication and 
safety that goes on every day, but we're trying to look at the 
basic programs that are structured around getting the young men 
and women ready and prepared to do this task, which is, you 
know, often a very dangerous task. And we appreciate the 
efforts of people that are involved, but we also want them to 
be well trained and well supported. And so, I think what we're 
looking for is a ballpark number, not every aspect--I don't 
know that you'd ever come before this committee, or at least 
not from this Senator, and hear, ``Well, wait a minute, you 
didn't include, you know, this aspect of day-to-day 
communications.'' What we're trying to--I think, because of 
Storm King, because of Thirty Mile, because of the IG's report, 
and saying that these are the habitual issues--that you might 
have commands, but are the commands really being followed, and 
are they really being implemented in a way that we have young 
men and women really being at the level of expertise that we 
need them to be?
    And we've heard, again, many examples of the implementation 
and the improvement, but I think what we're trying to avoid is 
getting to another situation again where we find out the same 
aspects of those ``watch out'' rules are being missed or being 
violated. And if we have--and there's no guarantees in this. I 
think this committee has a great deal of knowledge and 
background about how challenging this business is, just from 
the very beginning. But what we're trying to say is, we know 
that we have--we're improving on that ``watch out'' list and 
exactly the--we have a program in place for those situations, 
when extreme situations flare up and things go from just a day-
to-day situation of fighting fires to a very high-level, very 
complex fire, and catch people who may not be as trained and 
educated on those challenges and those ``watch out'' rules.
    Mr. Holtrop. Right.
    Senator Cantwell. That's what we're really trying to do, 
make sure that we've got this down, and that we are making that 
investment.
    Mr. Holtrop. Well, I think you have correctly assessed our 
most dangerous situations, those transitional fires, when a 
fire goes from being something that doesn't appear to be as 
dangerous to a dangerous situation very quickly.
    Again, I think there are two additional reservations that I 
feel around this issue. One is the amount of time, the 
administrative time it would take to track those additional 
items around safety and training on a case-by-case basis. Our 
current financial systems--we're actually geared toward trying 
to compress the number of line items in the--that we're 
managing in order to improve our financial tracking abilities. 
This would move in the opposite direction of that. And so, our 
current financial systems, our recordkeeping systems, are not 
equipped to deal with it. It's something that we can get to the 
point of being equipped to deal with it, but it would take 
extensive effort to do so. And, again, the question that we 
have is, are we focusing on the most effective means to assure 
that we're accomplishing our shared objective?
    The other concern I would have with a line item is, the way 
we currently accomplish our safety and our fire training is, 
we're able to do our safety training out of our fire 
preparedness account or out of our fire suppression account, et 
cetera. If we were to have a separate line item for fire safety 
and training, I have a fear that it might, in fact, become more 
of a cap on how much we can spend, rather than a floor, a base 
level of what we would spend on it, because, say, at the end of 
the year, if we had--if 30 million is the right number, and, 
come September, we have a set of fire situations in which we 
need to bring in military crews or something, and we want to do 
some additional fire training under appropriation integrity 
rules, we'd have to figure out a way to be able to fund the 
training; whereas, currently, we'd be able to do so from either 
preparedness or suppression.
    Senator Cantwell. Well, Mr. Holtrop, I know my time is up. 
I'm going to take you at your word and work with you to see if 
we can get this language in a way that you will be supportive 
of, because somehow I just think there has to be a way to do 
this. And I think just about every agency in the Government has 
to outline some of these issues. So, let's work together and 
try to figure this out.
    Mr. Holtrop. Thank you.
    Senator Craig. And I do hope you would work with the 
Senator. I think all of us are concerned when life is lost. I 
certainly know that the appropriate training, preparedness, 
alertness, all of those things in combination are well 
understood, because, with the best of training under the worst 
of environments, sometimes it doesn't work the way we would 
want it to, but the greater chance of lifesaving efforts is at 
hand, if they're well trained.
    Joel, I have some additional questions as it relates to 
land exchanges. I'm going to submit those to you for the record 
and ask for some more information. And that is in relation also 
to the Tahoe National Forest Land Exchange.
    We've got another panelist who is time-sensitive to a 
plane, so we're going to ask you to stand down. We thank you 
both, Joel and Chris, for being with us today and we appreciate 
your testimony.
    Now, let us invite Steve Duerr and Bob Warren to the table. 
Steve, I understand it's you who are time sensitive to an 
aircraft.
    Mr. Duerr. Yes, Senator.
    Senator Craig. All right. We're going to start with you, 
Steve Duerr, former executive director, Jackson Hole Chamber of 
Commerce, Jackson Hole, Wyoming.
    Mr. Duerr. Thank you, Senator--
    Senator Craig. But, first, does your Senator wish to make 
any additional comment?
    Senator Thomas. No, go right ahead. I've already recognized 
him.
    Senator Craig. All right.
    Senator Thomas  I'm delighted that he's here.
    Senator Craig. Please proceed, Steve.

 STATEMENT OF STEVE DUERR, FORMER EXECUTIVE DIRECTOR, JACKSON 
             HOLE CHAMBER OF COMMERCE, JACKSON, WY

    Mr. Duerr. Thank you, Senator. And thank you, Senator 
Thomas.
    I want to make clear up front that, as you corrected for 
the record, I'm the former executive director of the Jackson 
Hole Ski Corporation--or, excuse me, the Jackson Hole Chamber 
of Commerce, having recently resigned to return to my private 
law practice. So, I'm here as a citizen lawyer who has worked 
on these issues for probably 20 years. And, by relevant 
background, let me just say that for about 7 years, I was 
general counsel to the vice president at the Jackson Hole Ski 
Corporation, working on Forest Service permit matters and 
development issues in Jackson Hole. For a long time, I was in 
private practice, working on development issues, and I'm 
presently in my 17th year as general counsel for the electric 
and gas cooperative in the southern Greater Yellowstone--part 
of Idaho, part of Wyoming--working on national park and forests 
and BLM easements and other land-use matters, and that, as I 
mentioned, for the last 7 years I've been the director of the 
Jackson Hole Chamber of Commerce.
    Teton County, WY, has only 3 percent private land, so you 
can imagine the significance of the National Elk Refuge, the 
national parks, and the national forests to the economy of 
Teton County.
    Our vision for the Chamber of Commerce is a community that 
works. And, in that context, a community that works is one that 
takes a multiple-use approach to the use of natural resources, 
and every day you go to work trying to strike the right balance 
between commerce and conservation.
    But I'm not here representing any of those entities or 
clients or interests, other than to speak about this bill and 
my hope for its improvement, because it's so important to 
gateway communities. And I do want to make clear, as I did in 
my written testimony, Senator, that the section 2(a) findings, 
the nine findings, are very well-written, they're succinct, and 
they provide a balanced perspective on the challenges that 
gateway communities face.
    With respect to other written comments on the purposes 
clause, the improved communication, coordination, and 
cooperation--the three C's--it's like chasing the Holy Grail, 
but that's what we're all interested in pursuing in our gateway 
communities, and that purpose is praiseworthy and it's 
correctly stated. To this extent, though, I hope there can be 
amendment.
    Requiring cooperation--as you require cooperation in a 
Federal statute, you create the false expectation that by 
having required it, you'll get it. That's my concern. Might it 
be better to say ``assist Federal land managers and local 
communities, gateway communities, to improve the three C's,'' 
and then by saying ``assist,'' rather than ``require,'' have 
realistic expectations about how to identify ways to do that, 
the means to the end of improved coordination, cooperation, and 
communication?
    Alternative dispute resolution, adaptive management, best 
practices, anything that goes in the collaboration toolbox that 
works--what out there actually works?
    Because we're all trying to define the public interest, 
long term, and, in the short term, the impacts on gateway 
communities can be devastating. So, as we get into the planning 
process early, which is a laudable goal, how can we actually 
identify the means to the end and provide assistance that 
works? And perhaps with money, perhaps there's philanthropic 
grants or community foundation grants or other private money 
that can be brought to the table to add to a Federal grant that 
will allow us to get into these toolbox adaptive management 
best practices.
    And then, finally, I want to make clear that section 
2(d)(7) on cooperative agency status, that's a very important 
right for gateway communities. It's articulated well here. I 
believe it's provided under NEPA. And, again, my frustration 
with this, and where we might need some improvement in the 
bill, is that, for example, with the 5- to 10-year debacle--or 
the ongoing battle over winter use in Yellowstone, communities 
in transition from one economy to another, there is cooperating 
agency status, but some communities may have found it's a bit 
like riding the tiger once you get it. And what practical 
things can we do to bring a long-term economy to gateway 
communities in the winter? Because we still don't have a final 
winter-use plan, in spite of many good intentions and of almost 
a decade of work on it.
    So, to sum up, the practical issue of how to get results on 
the ground, identifying models that work in best practices. I 
can tell you about things that don't work, both an Interior and 
an Ag example. The Secretary of Interior pointed me to the 
Pinedale Anticline Working Group. The statute requires 
cooperation of the BLM official with a seven-member committee 
appointed by the Department of the Interior. It's failed. In 
fact, five members' terms have expired, and there is no real 
way to know when, if ever, five members will be replaced on 
that committee. Arguably, Pinedale and Sublette counties are 
gateways to the high desert--certainly, the Wind Rivers--but 
the impacts aren't being dealt with. What can we do about that, 
where cooperation is already required?
    Another example with the Ag and the Forest Service, in the 
Wyoming range, many people believe that you've got to draw the 
line somewhere with respect to national forest use, and that, 
in some cases, there's a higher public interest in recreation 
tourism than drilling the heck out of the forest. And the 
Governor of Wyoming and some Federal officials in Wyoming have 
expressed concerns about leasing the Wyoming range, but the 
Forest Service continues to lease the Wyoming range. What can 
we do about that? What is in the public interest, long term? 
And how do we deal with the short-term impacts?
    So, finally, to sum up, I agree with the findings and the 
purposes of the bill. I'm concerned that requiring cooperation 
creates the expectation that you'll get cooperation. Better to 
assist gateway communities and Federal land managers with 
training and other arrows in the quiver of the toolbox of best 
practices that can get practical results on the ground.
    Thank you, Senator.
    [The prepared statement of Mr. Duerr follows:]
     Prepared Statement of Steve Duerr, Former Executive Director, 
           Jackson Hole Chamber of Commerce, Jackson Hole, WY
    Good afternoon. My name is Steve Duerr, and after 7 years I am the 
outgoing Executive Director of the Jackson Hole Chamber of Commerce. I 
have practiced law in Jackson Hole for about 20 years including about 8 
years as General Counsel for the Jackson Hole Ski Corporation. Thank 
you for inviting me to provide my perspective about H.R. 585, the 
Gateway Communities Cooperation Act, coming from the southern gateway 
community to Grand Teton and Yellowstone National Parks.
    The livelihoods and prospects for running successful businesses in 
our community are intertwined with the power of the place in which we 
live--the southern gateway to Grand Teton and Yellowstone National 
Parks.
    The Jackson Hole Chamber has received much praise for its brand 
``Respecting the Power of Place'' and for the collective promise by the 
business community to acknowledge a duty of stewardship to preserve 
this special place on Earth. This spirit of place, the abundant 
wildlife, clean air and water, and vast public lands, are the 
foundation of our economy and the essence of our community.
    The brand promise was created through a process involving the 
mindful work of a diverse cross section of our community, including 
local elected officials, national park, national forest and national 
refuge managers, conservationists and hard-nosed business owners. We 
described the functional benefits for our brand promise, to maintain 
our distinctive market niche, and the emotional benefits, including a 
sense of stewardship and awe and reverence for the abundance and beauty 
of the natural resources in Jackson Hole. This close collaboration in 
the Jackson Hole region among commerce and conservation interests, 
federal, state and local leaders, has become the norm rather than the 
exception. While sometimes not in agreement, we are proud of a track 
record of constructive dialogue and cooperation. The Greater 
Yellowstone Visitor Center is just one example of collaboration across 
management jurisdictions and interests groups, which receives national 
praise and interest as a model for other gateway communities. Other 
examples are the annual Elk Fest and Boy Scout elk antler sale, Old 
West Days events, the Miller House interpretative center, Fall Arts 
Festival featuring the Arts for the Parks top 100 exhibits, and 
participation and support by community members in the Yellowstone and 
Grand Teton National Park Foundations.
    In this historic and present context of cooperation and 
constructive dialogue, I am concerned that H.R. 585, as drafted, is 
somewhat misnamed. It does not appear to be legislation that focuses on 
truly enhancing cooperation and partnerships with balanced or practical 
approaches, but rather a somewhat confusing, one-size-fits-all mandate 
with an emphasis on compelling specific actions by the secretaries of 
Agriculture and Interior. I was appointed by the Secretary of Interior 
to an at Large Seat on the Pinedale Anticline Working Group (PAWG). By 
statute the BLM is required to meet regularly with the 7 stakeholder 
representatives and to cooperate with PAWG to try to mitigate impacts 
of the gas development in Sublette County, Wyoming. This is an example 
where cooperation is mandated by law, and I believe the results of 
actual cooperation have been very disappointing.
    I want to be clear. The goal of cooperation set forth in the bill 
is a good idea. The question is, if the end result produced by genuine 
cooperation is good, whether the means to achieve that cooperation are 
well articulated in the bill. Surely gateway communities have an 
important role to play, and helpful perspectives to contribute, in the 
decision-making processes related to federal lands. We must be heard on 
federal land use decisions, and we would like our voice to carry 
greater weight on many matters. Clearly, our gateway community reaps 
the benefits of proximity to two world-class national parks, but we 
also must deal with the impacts on local infrastructure of millions of 
visitor and spiraling complex growth affecting the New West.
    That said, it is worth noting that different federal lands have 
different purposes. The purpose of multiple use lands like the Bridger-
Teton National Forest in Wyoming or the Kaniksu National Forest in 
Idaho are different from the purpose for which Grand Teton, Fort 
Laramie, and Yellowstone were designated as national park units. We 
ought to acknowledge that, while federal land managers should seek out 
and work with gateway leaders, national parks are not county parks, but 
must be managed in the broader national interest rather than the local 
interest. At times the politics are hot and the purported national and 
claimed local interests lock in a battle over NEPA comments on 
potential federal action, or in litigation over decisions. The range of 
emotions, the turf at stake and the wisdom of stakeholders and decision 
makers vary from issue to issue and from one federal land matter to 
another. It simply gets complicated very fast.
    To sum up, about all you can say for sure is that those of us who 
work in gateway communities have our job to do, and the National Park 
Service and other federal land managers have their jobs to do. All of 
us need to respect each other's needs and challenges when considering 
actions that may impact each other. Mutual respect breeds cooperation, 
but by what means can we help assure a process that lends itself to 
opportunities for nurturing mutual respect? The end goal of cooperation 
is good, but by what means shall we achieve that goal?
    H.R. 585: I repeat that the purpose of the bill is laudable--
improving relationships among federal land managers and gateway 
communities, enhancing facilities and services in gateway communities 
to serve visitors, and improving local land use planning and decision 
making. The problem is that the rest of the bill doesn't live up to its 
purpose. My hope is that, with changes, it might provide a means to the 
laudable end of cooperation.
    I want to highlight four basic problems with the bill, which ought 
to be addressed: (1) imposing requirements across the board without 
acknowledging the diversity of land management agency missions, 
including the purpose of individual (especially park) units; (2) the 
basic idea that one can mandate cooperation; (3) the challenges park 
personnel face because of insufficient funding, and how that can impact 
gateway communities; and (4) identifying and funding action toward best 
practices in collaborative decision making or adaptive management.
    One Size Does Not Fit All: First, I note that in H.R. 585, 
responsibilities on the part of gateway communities are not very well 
articulated. The findings section of the bill does a reasonably good 
job of describing the roles of gateway communities, but does a poor job 
of acknowledging the special roles and responsibilities of entities 
like the National Park Service. The bill seems to treat all federal 
lands, federal management considerations, and gateway community 
relationships the same, when diversity not sameness appears to be the 
rule. Federal land managed by the Forest Service, which is managed for 
multiple use, has different purposes from national park land that has 
been set aside for future generations and includes different permitted 
uses in different national parks. The experience with PAWG and the BLM 
is remarkable in that the politics of gas development may now be the 
sole ``multiple use'' for which these federal lands are managed. Yet, 
neither the findings nor the remainder of the bill seem to acknowledge 
the important distinctions among federal lands or the practical 
challenges to cooperation among federal land managers and gateway 
communities wrought by changing politics .
    Mandating Cooperation: Second, it is difficult to see how you can 
mandate cooperation through federal legislation. The fact is, people 
from all perspectives on an issue need the ability to engage in 
respectful dialogues. Otherwise genuine cooperation is unlikely. 
Certainly, there have been plenty of times when federal land managers, 
including the National Park Service, have done things local communities 
didn't like. I've had those experiences like the gas development boom. 
But there have also been many examples of useful dialogue producing 
beneficial results, like the examples I provided of how our federal, 
state, local, commercial and conservation interests often work 
together.
    It is easy to see why many of my colleagues in gateway communities 
feel frustrated enough with the brush-offs they have received from time 
to time from various federal officials, and too often too many federal 
managers consider local governments a nuisance. But, as tempting as it 
may be to mandate cooperation, this is impractical.
    The solution is not a bureaucratic checklist of items that the feds 
must do. Such a list inevitably will lead to more frustration and could 
simply lead to litigation, rather than better results that build on the 
mutual interests of national parks and adjacent communities.
    What we need is a mechanism or process that can lead to the 
sustainable strengthening of relationships and mutual respect at the 
local level. What we need is a careful articulation of the possible 
means to ``assist'' in building cooperation rather than a simple 
mandate of cooperation. Specific to the language of the bill, consider 
the ramifications if the word ``assist'' in inserted for ``require'' 
and if the bill then went on to explain the means of that assistance. 
There will not always be agreement, but there certainly can be much 
better procedures that provide more opportunities for constructive 
dialogue and reasoned compromise than often is the case today. The fact 
is, in the case of the Park Service, there are already plenty of 
requirements for engaging with local communities. At times those 
produce results we in gateway communities like, and at times they 
don't. The solution is not more bureaucratic paperwork requirements, 
but a practical and fair process for engagement that works.
    For example, federal managers ought to be better trained earlier in 
their careers about how to work with local communities. The bill could 
be amended, or personnel policies changed, to require specific training 
for early or mid-career BLM, Park Service or Forest Service personnel 
in how to work with gateway communities. Obviously certain decisions 
made by a national park or various federal land managers can have 
profound effects on a community--transportation decisions, reductions 
in visitor center hours, and others. Federal land managers need to be 
aware of that fact, and they need to know that it matters. Certainly 
they have their obligations based on the charge they are given, but 
they ought to have relevant training so we are reasonably assured they 
understand the ramifications of various decisions on their neighbors in 
the local communities--this training could lead to more sustainable and 
acceptable decision making. Regular, meaningful and mindful 
communication should be the rule based on training and a federal 
culture sensitive to the necessity for cooperation.
    The same is true for gateway communities. Transportation decisions, 
zoning determinations and other policies we develop can have enormous 
impacts on national parks and other public lands. Just like the 
national parks, our local communities have the right to make their own 
decisions. But those decisions can be better for all concerned if we 
work to understand their impacts on federal lands held in public trust, 
and the potential alternatives that might help us reach the same ends.
    The bill requires training sessions for elected officials in 
gateway communities. The Park Service's management policies already 
require in section 2.3.1.6 that park managers ``use the public 
involvement process to share information about legal and policy 
mandates, the planning process, issues, and proposed management 
directions; learn about the values placed by other people and groups on 
the same resources and visitor experiences; and build support for 
implementing the plan among local interests, visitors, Congress, and 
others at the regional and national level.'' It further requires park 
managers to work with a broad range of the public, including, 
``existing and potential visitors, park neighbors, people with 
traditional cultural ties to lands within the park, concessionaires, 
cooperating associations, other partners, scientists and scholars, and 
other government agencies.'' Who is to receive training, how and when, 
the purposes for the training and the desired outcomes of training are 
not well described in the bill.
    Last spring, Grand Teton National Park invited county and town 
officials to a briefing on its plans and priorities. The park provided 
an overview of park issues, and explained some of its current and 
future plans, including an orientation to the new visitor center site. 
The more parks and other federal land managers make efforts like this 
to brief, communicate with, and hear from, local leaders, the better 
off we'll be. While there are times when briefings like this one are 
necessary--and they are always beneficial--regular, frequent 
communication by both parties ought to be the rule. Training can help 
accomplish that, but mandating how that training should look in every 
case is not necessarily the way to go.
    In addition, I understand that there are excellent training courses 
presently available that can be beneficial both to federal officials 
and gateway community leaders. For example, a course offered through 
the Fish and Wildlife Service's National Conservation Training Center, 
entitled ``Balancing Nature and Commerce in Gateway Communities,'' is 
designed to help ``prepare public land managers and gateway community 
leaders to develop and promote their own gateway community initiatives. 
The course explores significant issues facing gateway communities and 
adjacent public lands and the tools that can be used to address those 
issues.'' One mechanism for pursuing such an existing training 
opportunity would be to create a very modest grant program with 
resources for which gateway communities and federal land managers might 
jointly apply.
    Funding Challenges: This brings me to my third reservation. I am 
concerned about layering specific requirements onto the 
responsibilities of all federal land managers, regardless of the degree 
to which they have the capacity to meet those requirements--
particularly the Park Service. This not only stresses already strained 
budgets, but also may create unrealistic expectations among gateway 
communities. For example, many national parks do not have on staff the 
kinds of land use planners the bill requires to provide technical 
assistance to gateway communities. Again, not all parks are alike, so 
it makes little sense to treat Grand Teton, Fort Laramie, Gettysburg 
and Minuteman Missile park units the same.
    In addition, the combination of unfunded mandates and fixed costs 
has forced Grand Teton to cut its interpretive staff by nearly \1/3\--
from 17 to 12. This has meant a reduction in the number of public 
education programs and in the hours of operation of the Colter Bay 
Visitor Center. This kind of reduction in park services is not 
beneficial to Jackson Hole or to park visitors. It is not fair to blame 
the park, which is having to make extremely hard choices because of 
inadequate budgets.
    These human resource and financial capacities are relevant 
considerations in assessing the ability of park managers and gateway 
communities to cooperate, but the bill does not address such matters. 
The means by which assistance can be provided toward the end goal of 
cooperation should be better articulated.
    Best Practices: Fourth, the bill as drafted misses an opportunity 
to identify models that genuinely work. Very modest planning grants of 
$50,000 to $80,000, with an in-kind match from small gateway 
communities, could be enormously beneficial in fostering a process 
where local government, businesses, tribal governments, the Park 
Service and other key parties to engage in collaborative planning 
efforts that meet mutual goals and obligations. Something like this 
could be tried on a pilot basis at various land management units and 
units of the Park System--national forests, BLM sites, national parks, 
national battlefields, national historic sites, etc. However, the money 
should come from a separate source, not from already stretched park 
budgets. There are few incentives toward working together that work as 
well as putting money on the table, even a modest amount.
    Regarding the BLM statutory PAWG requirement of dialogue and 
cooperation concerning gas development impacts, the BLM has money for 
the process and for mitigation. Concerning adaptive management best 
practices, one might consider why this required cooperation is not 
working--what assistance could be provided to the BLM and community 
leaders that builds mutual respect, cooperation and success on the 
ground? In my opinion, requiring cooperation in this instance is not 
working.
    Conclusion: In summary, I want to leave the subcommittee with the 
following thoughts:
    First, resist the temptation to mandate cooperation. There are 
examples where such mandates are failing. We ought to learn why and 
what assistance could be provided to aid cooperation. Consider 
inserting ``assist'' for ``require'' and then defining the means to the 
end of cooperation, perhaps, defining best practices and providing 
funding opportunities for their implementation.
    Second, respect the differences between the missions of various 
federal land management agencies, including units within the 
jurisdiction of those agencies. There is no one-size-fits-all approach 
to dealing with the BLM, national parks and national forests, just as 
there is no single solution for every gateway community.

    Senator Craig. Steve, thank you very much.
    Let's turn to Bob Warren, chairman, National Alliance of 
Gateway Communities, Redding, CA.
    Bob, welcome to the committee.

STATEMENT OF BOB WARREN, CHAIRMAN, NATIONAL ALLIANCE OF GATEWAY 
                    COMMUNITIES, REDDING, CA

    Mr. Warren. Good afternoon, and thank you, Mr. Chairman and 
other subcommittee members, for the opportunity to testify 
today. And I certainly appreciate the bipartisan support that 
Senator Wyden was offering, as well as having Congressman 
George Radanovich show up and speak on behalf of the bill.
    I'm really here today as the chairman of the National 
Alliance of Gateway Communities, but I also represent the city 
of Redding, CA, which I think is the perfect example of a 
gateway community. Within 10 miles are Forest Service lands, 
BLM lands, and a national park unit. The NAGC is the only 
national organization solely dedicated to representing the 
interests of gateway communities. In California and the West, 
many communities are transitioning to more diverse economies, 
as we've talked about in the past. We know that in the future, 
visitors to public lands will play an increasingly more 
important role in the economies of our gateway communities.
    Those of us in the West know that public lands are often 
the magnets that really draw people to our communities, and 
that's both domestic and international visitors. Many of the 
supervisors and superintendents and managers of public lands 
are keenly aware of the importance of working with gateway 
communities. I know that, in my own area, many of them strive 
to work daily with our community leaders. Unfortunately, this 
is not always the case for some gateway communities, and not 
always the case always, all the time. There are too many 
examples of these relationships which are inconsistent and 
unreliable, and often too dependent on personalities.
    While want to--what we want to do with the enacting of this 
legislation is to take a major step toward--I hate the word 
``institutionalize,'' but kind of institutionalize those 
relationships, making them so that you, as Congress, have put 
out the word that it's an important factor that you want 
considered. Many of the management plans for significant public 
lands units devote hundreds of pages to natural resource 
preservation, while devoting just a paragraph or two to the 
people who live in the area adjacent to the unit. For example, 
although economic and social impacts are supposed to be 
considered in national forest management plans, the plan for 
one national forest in Arizona has one paragraph that addresses 
those issues, with more than 100 pages addressing various 
habitat scenarios. Of course, we don't object to that sort of 
overview of the environment, but would want more effort made 
toward communities.
    In the mid-1990's, five communities that are gateways to 
Yellowstone National Park decided to form the Yellowstone 
Gateway Alliance to speak with one voice on issues of common 
concern for all. The superintendent of the park at that time 
flatly refused to talk with the gateways as a group. And I 
might add that the community of Cody and the executive director 
of the Cody Chamber of Commerce, Gene Bryan, said, ``We believe 
the gateways bill gives us some level of assurance that 
gateways like Cody will be involved in the critical management 
issues, multiyear plans, plan revisions, and specific issues, 
such as winter use. We don't expect all our wants and desires 
to be listened to, but we are hoping that this will help out.''
    And we'd also like you to understand that the current 
superintendent for Yellowstone, Suzanne Lewis, is getting--is 
giving great cooperation and dialog to the communities around 
Yellowstone. And Cody has said that they love her, and love 
working with her.
    I'd like to mention, H.R. 585 does not compel any 
superintendent to talk to such coalitions, but it would clearly 
declare that the intent of Congress is to support much greater 
cooperation, coordination, and communication. While communities 
are making significant planning changes, they are required to 
comply with numerous Federal environmental mandates. This makes 
for a one-way street, as the capability of those small rural 
communities to comment meaningfully on the new plans and 
policies of adjacent Federal lands is often limited. All it 
really does it give H.R. 585--and gives the gateway communities 
a seat at the table. The bill does not give a gateway community 
a veto over agency programs, actions, or policies, nor does it 
give a gateway preferential treatment. The bill would give 
local public lands managers a greater understanding of the 
needs and prospects of their adjacent communities.
    In closing, I don't want you to think that we, in gateway 
communities, are not appreciative of the effort that's being 
made to date. We just want a legal standing in the Federal 
decisionmaking process. Often, the Federal lands are the 
foundation of a community's culture, commerce, and heritage, 
and the gateway communities are essential to providing for 
local recreational use and visitors to those lands. Public-
lands policies are too often politicized and charged with 
emotions. The policies and emotions are dramatically played out 
in our communities. The wrenching drama is for naught if our 
communities can't have a meaningful stake in that process. 
Often this process is affected by the sparse rural population 
representation in the West, pitted against well-meaning, urban 
political agendas driven by well-financed and well-staffed 
special-interest groups. This leads to many gateways 
communities feeling as we are being treated like children when 
we are told to eat our vegetables, it's what's best for us. 
Leaders in gateway communities are faced with the daily tension 
of attempting to balance commerce and conservation, of 
preserving enduring wildness while enhancing economic well-
being. This tension is, of course, by choice, as those of us 
who live in gateway communities most often would choose to be 
nowhere else.
    We feel that this important bill will help bridge the gap 
between today and tomorrow, while striving to preserve all that 
is natural in our communities.
    And, finally, I'd like to say that the bill has the support 
of the National Association of County Organizations, NACO; the 
Travel Industry Association of America; the National Tour 
Association; the American Bus Association; and the American 
Association of RV Parks and Campgrounds.
    Mr. Chairman, we hope that you can support this bill for 
our communities. Its enactment will open a new day for 
gateways.
    Thank you.
    [The prepared statement of Mr. Warren follows:]
   Prepared Statement of Bob Warren, Chairman, National Alliance of 
Gateway Communities, and Tourism Development Manager, City of Redding, 
                                   CA
    Thank you Chairman Craig, and other subcommittee members for the 
opportunity to testify on behalf of H.R. 585. I am here as Chairman of 
the National Alliance of Gateway Communities (NAGC) and I am also 
representing the City of Redding, California, as the Tourism 
Development Manager. Redding is the perfect example of a gateway 
community. Within a ten-mile radius, there are the boundaries of a 
National Park Service Unit, Bureau of Land Management lands, and a 
National Forest. The City benefits from this close proximity to Federal 
lands, attracting significant tourism dollars, and, of course, the 
lifestyle blessings of actual proximity to beautiful natural 
attractions. Visitors to our Federal lands benefit also from the first 
class tourism services available in Redding, which has hundreds of 
private tourism service businesses. The NAGC represents the interests 
of those communities that serve as gateways for millions of visitors to 
our magnificent Federal public. The NAGC was actually formed with the 
encouragement of the major Federal land management agencies, which felt 
there was a need for an organization to help small gateway communities 
become more skilled at interacting with Federal agencies. This 
organization is the only national organization solely dedicated to 
representing the interests of gateway communities.
    I am pleased to note that the NAGC is joined in its support of H.R. 
585 by the National Association of Counties, the National Association 
of RV Parks & Campgrounds, the National Bus Association, the National 
Tour Association and the Travel Industry Association of America.
    On behalf of the NAGC and gateway communities everywhere, we thank 
you, Mr. Chairman, for considering this historic bill in this hearing. 
To the best of our knowledge, it is the first bill ever to focus 
exclusively on the needs and concerns of gateway communities.
    Gateway communities, by their very nature, are close to public 
lands. They have a symbiotic relationship that creates an arrangement 
where the public land units need the communities for their services, 
while the communities need the public lands as attractions. In 
California and in the West, and in many other parts of the nation, 
communities are transitioning to more diversified economies, less based 
on resource extraction. We know that, in the future, visitors to public 
lands will play an increasingly more important role in the economies of 
our gateway communities. In rural California, every $68,000 spent by 
travelers creates one new job. Also, many of those visiting public 
lands are international visitors who often make their visit to America 
a visit to rural America. Germans alone account for hundreds of 
thousands of visits to public lands in California annually. One 
national park in Northern California surveyed visitors during a recent 
one-month period, and eleven percent of all visitors were German. 
Obviously, the dollars spent by these foreign visitors and others are 
important to both the economies of gateway communities as well as to 
the national balance of trade. Those of us in the West also know that 
public lands will continue to be the ``magnets'' that draw both 
domestic visitors and internationals back to our rural communities.
                  the need: why h.r. 585 is important
    Many of the supervisors, superintendents, and managers of public 
land management units are keenly aware of the importance of working 
with their gateway communities. I know in my area, many of them make 
daily efforts to interact with community leaders. Unfortunately, this 
is not always the case. There are too many cases where relationships 
are inconsistent and unreliable and are often too dependent on the 
personalities involved. What we want to do by enacting this legislation 
is to take a major step towards institutionalizing those relationships 
by putting them on a firmer statutory base.
    There are also examples of Federal land managers showing little 
concern for the economics of gateway communities and purposefully 
attempting to affect development outside their management units. In one 
instance in the Northwest, a new national park superintendent was 
interviewed for an article in a major newspaper in which he indicated 
opposition to a planned destination resort more than 11 miles from the 
park that he managed. Unfortunately, he had neglected to communicate 
with the developer who had, for the previous nine years, worked in 
concert with the park superintendent's predecessor and staff on the 
planning of this resort. H.R. 585 would certainly not have affected his 
ability to speak out on this issue, but he would have at least known 
that he also would need to develop a relationship with the adjacent 
communities, so when issues related to important park management 
decisions came up, the community would be part of his thought process.
    Many of the management plans for significant public land devote 
hundreds of pages to natural resource preservation, while devoting just 
a paragraph or two to the people who live in or adjacent to that unit. 
Their frustration is exacerbated when their communities do not have a 
``seat at the table''.
    For example, although economic and social impacts are supposed to 
be considered in national forest management plans, the plan for the 
Kaibab National Forest in Arizona has about one paragraph that 
addresses gateway issues with more than 100 pages addressing various 
habitat scenarios. Careful consideration is given to the goshawk, but 
little is given to the gateway communities and the people who live 
there. Now we want to be clear. We do not object to thorough 
consideration of environmental and wildlife issues; indeed we strongly 
support such examination. But surely the interests and concerns of 
gateways and the families and businesses that make their homes there 
should also get serious consideration.
    In the mid-1990s, the five communities that are gateways to 
Yellowstone National Park decided to form the Yellowstone Gateway 
Alliance to speak with one voice on issues of common concern to all of 
them. The superintendent of the park at that time flatly refused to 
talk with the gateways as a group, although he was more than willing to 
meet with other interest group coalitions. Conversely, today the 
community of Cody, Wyoming, the east entrance to Yellowstone National 
Park, is enjoying an excellent rapport with the current park 
superintendent, Suzanne Lewis and her staff Cody has had input in park 
road maintenance affecting the east entrance and their tourism economy. 
Working together they now describe road work as ``road improvements'' 
rather than ``construction'' and refer to ``hours of operation'' rather 
than ``closures.''
    For more than 50 years the small tourism community of Cody has 
realized the importance of a respectful and working relationship with 
the Yellowstone National Park administration and community leaders. The 
Cody National Park Committee meets at least three times a year with 
Yellowstone officials to make certain communication lines remain open 
and issues get identified and dealt with before they become problems. 
Although the community realizes it is extremely fortunate to have 
exemplary working relationships currently with its Federal partners, it 
also understands that has not always been the case, and that those 
relationships can and often do change with new administrations. For 
this reason, Gene Bryan, executive director of the Cody Country Chamber 
of Commerce, declares that, ``We believe the Gateways bill gives us 
some level of assurance that gateways like Cody will be involved in 
critical management issues--multi-year plans, plan revisions, specific 
issues (winter use, for example). We don't expect all our `wants' and 
`desires' to be met, but we do appreciate being listened to.''
    Another community adjacent to Yellowstone experienced similar 
challenges. West Yellowstone, Montana, a small gateway community of 
about 1100 people literally situated at the west gate of Yellowstone 
National Park and bounded on all other sides by Forest Services lands, 
provides lodging and ancillary needs for over 2 million visitors a 
year, and of course is heavily impacted by decisions made at the Park 
and with Forest Service managers. West Yellowstone should indeed be a 
partner with the Park, providing infrastructure and facilities to 
handle their visitors and contributing significantly to the visitor 
experience. In the late 1990's the community attempted to meet the 
challenge and heavily bonded for municipal services. But, as a result 
of changes precipitated by the 2000 Winter Use Plan, the total number 
of winter recreational visitors from the west gate has dropped from 
70,371 visitors in 1970-71 to 28,242 in 2005-06. This has been 
devastating, and has caused 10 local businesses to close in the winter. 
The gateway communities around Yellowstone National Park count on 
winter access into Yellowstone as part of their economic viability. The 
2000 winter use plan for Yellowstone called for a ban on snowmobile 
usage in the park. Despite repeated attempts by local gateway towns to 
obtain cooperating agency status during the development of that winter 
use plan, they were never given the opportunity to be ``at the table'' 
with the neighboring states and adjacent counties during this process.
    Another example of ``challenging relations'' is Yosemite National 
Park. Attendance at Yosemite National Park was growing quite steadily 
prior to the flood of 1997. A General Management Plan had been put into 
place to address the anticipated future of resource protection in light 
of these trends. Implementation of the 1980 General Management Plan was 
on hold during the years leading up to 1997 due to lack of enough funds 
to support both day to day operations and plan implementation. The 
emergency funds awarded by Congress to Yosemite National Park 
officials, posed an opportunity too good to pass up. Several 
implementation plans were ``tweaked'' and the Yosemite Valley Plan 
emerged to support the 1980 General Management Plan principles. The 
foundational intent of the planning process has become well know to 
most Californians, i.e., to eliminate cars and limit access to bus 
transportation. This has left a significant portion of the public 
searching for a more convenient alternative for vacations and getaways. 
Visitors Bureaus from around Yosemite are questioned at nearly every 
travel show and conference they attend about the ability to drive into 
the park. Since 1997, visitation to Yosemite remains relatively flat, 
compared to the 1997 figures. A variety of park management decisions 
have lead to the public voting on these decisions by choosing not to 
visit. The Park management's concern with stagnant visitation seems to 
be low on the priority list and may give some hint to the need for 
better cooperation between Yosemite and the gateway communities. 
Gateway community leaders around Yosemite often feel the Park's 
quarterly ``Gateway Partners'' meetings are in reality just ``show and 
tell'' sessions, with little input being taken from the gateways. Those 
in the communities who call them such, are characterized as 
``uncooperative'' or ``radical gatewayers'' who will never be 
satisfied.
    When communities are making significant planning changes, 
especially involving land use issues, they are required to comply with 
a host of Federal environmental mandates. Many agencies often comment 
on their proposed planning efforts. This makes for a one-way street, as 
the communities have far less opportunity to comment on proposed 
changes on adjacent Federal lands. Although H.R. 585 does provide 
gateway communities a ``seat at the table,'' the bill does not give a 
gateway community a veto over agency programs, actions, or policies. 
The bill would promote cooperation and coordination and give local 
Federal land managers a greater understanding of the needs and 
perspectives of their adjacent communities. I might add that it will 
also give local leaders a greater understanding of the needs and 
perspectives of their local Federal land managers.
                           defining gateways
    It is difficult to use specific geographic, demographic, social or 
economic criteria to define and identify all gateway communities. 
Previous efforts to define gateways as those communities within so many 
miles of a particular Federal land site, or with a maximum population 
base, or as generating so much tax revenue from visitors to the Federal 
land site inevitably fall short of encompassing the full range of 
gateways. There are always notable exceptions to any such formula.
    For these reasons, we support the approach taken in H.R. 585. After 
requiring that gateway communities be incorporated or recognized in a 
``county or regional land use plan or within tribal jurisdictional 
boundaries.'' The decision as to whether a community is a gateway is 
delegated to ``the relevant Secretary (or the head of the tourism 
office for the State)'' who are required to determine whether the 
community ``is significantly affected economically, socially, or 
environmentally by planning and management decisions regarding Federal 
lands.''
    We believe the Secretaries of Interior and Agriculture and the 
State Tourism Offices are in the best position to determine the degree 
to which the community is affected by its Federal land neighbor.
                       what this bill will not do
    Now let me try and clarify some possible misimpression about this 
Gateways Bill.
    First, we do not believe it is an invitation to ``bash the 
agencies.'' Many local Federal land managers understand the importance 
of good relations with their gateway communities and make proactive 
attempts to cultivate those good relations. They are to be commended. 
At the national level, the Federal land agencies recently have 
increasingly recognized the importance of gateways.
    Second, H.R. 585 does not gives gateway communities any type of 
veto over policies, decisions, programs or activities of any Federal 
land agency. It does not give any gateways preference or priority over 
any other stakeholder. That has never been the intent of the bill.
    Third, we do not believe that H.R. 585 will encourage litigation by 
gateways communities over agency plans or decisions. For several 
reasons, including a lack of financial resources, it is extremely rare 
for gateway communities to initiate litigation challenging the Federal 
agencies. To the contrary, we believe that the closer communication and 
dialogue and better partnerships that will be fostered by H.R. 585 will 
make future litigation much less likely.
    Fourth, we do not think that H.R. 585 is, in any way, contrary to 
the environmental values and goals of-our nation. No one loves the 
natural beauty and wildlife of our magnificent national parks, forests 
and other Federal public lands more than those who have chosen to spend 
their lives in the communities next door to them.
    Fifth, we do not believe that H.R. 585 elevates local interests 
over the national interests. We recognize that we are talking about 
national parks and national forests, and they must always be responsive 
first and foremost to national values and priorities. Nothing in this 
bill would change that.
    Sixth, H.R. 585 does not place any additional mandates on gateway 
communities. It will be the voluntary choice of the gateway as to 
whether it seeks to utilize any of the provisions of the bill.
                         what this bill will do
    H.R. 585 is a balanced, reasonable response to a widespread 
concern. As we have noted, in many instances, relationships between 
Federal land agencies and their gateway communities are harmonious and 
productive. Many Federal land managers and local leaders do indeed 
``get it'' and work harmoniously together.
    They understand that the community and the Federal land are 
inevitably interconnected. They understand that it is not a ``zero sum 
game,'' but that the health and vitality of one has a direct impact on 
the other. They understand the imperative of being ``good neighbors'' 
with their gateways. They understand that the Federal lands are poorly 
served by gateway communities that are weak and resentful,
    But this is not always the case. In the last decade, in 1998 and in 
2002, there have been two major State-Federal Conferences devoted to 
gateway communities. At both conferences, two common refrains were that 
the agencies too often ignored the interests of gateways without reason 
and that many gateways have insufficient staff and expertise to 
participate in a truly meaningful way in agency policy-making 
processes. At present, it is up to each Federal land manager to decide 
what relationships he or she wants to have with gateway communities. 
There has never been a statutory declaration that gateway communities 
are critical to the mission of the agencies and that cooperation and 
coordination should be fostered.
    The first and greatest value of H.R. 585, therefore, is to declare 
as a matter of national policy that Federal land managers are required

to communicate, coordinate and cooperate with gateway communities in 
order to----

          (1) improve the relationships among Federal land managers, 
        elected officials and residents of gateway communities;
          (2) enhance the facilities and services in gateway 
        communities available to visitors to Federal lands when 
        compatible with the management of these lands, including the 
        availability of historical and cultural resources; and
          (3) result in better local land use planning in gateway 
        communities and decisions by the relevant Secretary.

    The bill thus provides historic recognition by Congress that 
gateway communities are integral to the mission of the public lands, 
the first points of contact for visitors and the providers of essential 
services to both visitors and the public lands.
    In the closing days of the Clinton Administration, T. Destry 
Jarvis, then Senior Advisor to the Assistant Secretary of Interior for 
Fish and Wildlife and Parks, wrote: ``. . . no land-use decision around 
a national park is exclusively local or national, but always has 
implications on both. The National Park Service should realize its 
affirmative responsibility to actively participate in local land-use 
decisions, and should similarly be aware of the effects of its 
decisions on its neighbors, allowing them to be involved in the process 
of arriving at those decisions.'' H.R. 585 would be an historic step 
towards that goal.
    Too many times, small gateway communities--towns and counties--are 
expected to interpret and comment on complex agency draft planning 
documents without staff and expertise to interpret and evaluate the 
potential ramifications of those plans for the communities.
    In this regard, let me enter in a statement from an NAGC director. 
This statement is from Karen Alvey, former mayor of Kanab, Utah, who 
over the years, has tried hard to ensure that the Escalante National 
Monument is developed in accord with both national and local values and 
goals.

          After much thought, I have decided that the whole process of 
        planning on public lands must be done with the communities at 
        the table, and early on. Most of the public officials have 
        other jobs, cannot afford full time staff to attend and gather 
        information, and lack the knowledge to make good decisions on 
        management issues. If it is mandated to invite the community's 
        leaders in early so that they can become educated, then better 
        decisions will be made. Currently, planning seems to go on 
        forever, then decisions are made and announced to the 
        communities.

    H.R. 4622 would enable gateways to be much more meaningful 
participants in those agency planning processes by:

          (1) receiving early, non-technical summaries of such plans, 
        their assumptions and objectives and the anticipated impact on 
        gateway communities;
          (2) receiving the earliest practicable public notice of 
        proposed decisions that may have a significant impact on 
        gateway communities;
          (3) receiving training from the agencies about their planning 
        processes and how they can best participate;
          (4) receiving technical assistance from the agency, including 
        detailed agency staff to work with the gateway to understand 
        and respond better to proposed agency plans;
          (5) receiving, on request, a review from the agency of its 
        land use, management or transportation plans likely to affect 
        the community;
          (6) entering into cooperative agreements to coordinate local 
        land use plans with those of the Federal land agency, other 
        Federal agencies, State governments and tribal governments;

    What these provisions would do is to institutionalize gateway 
community involvement with their Federal land neighbors. It would 
systematize and set parameters on planning processes that have until 
now been inconsistent and unclear from the perspective of local 
communities. Plans do matter. The Federal land agencies are guided (and 
limited) in future years by the assumptions and conclusions of their 
plans. They will be better plans--more effective and more accepted--
with greater community involvement.
    It is also worthy of special note that H.R. 585 will require 
interagency coordination and consolidation when the plans and planning 
processes of two or more Federal land agencies are anticipated to have 
an impact on a gateway community. This will go a long way towards 
reducing overlap, redundancy and confusion for gateways near multiple 
Federal lands with multiple plans.
                         summary and conclusion
    In closing, I don't think we can any longer deny our gateway 
communities legal standing in the Federal decision-making process. 
Often, Federal lands are the foundation of a community's culture, 
commerce, and heritage. Decisions affected those lands are often 
politicized and charged with emotion, as shown by the proliferation of 
litigation by outside groups (although typically not by gateways). The 
politics and emotions are dramatically played out in our communities. 
This wrenching drama is for naught, if our communities cannot have a 
meaningful stake in the process. Often, this process is affected by the 
sparse rural population political representation in the West, pitted 
against well meaning, urban political agendas driven by well-financed 
and staffed special interest groups. This leads to many gateway 
communities feeling as if they are being treated like children, when 
told to ``eat your vegetables, it's what's best for you''. H.R. 585 
will modify the process and level the playing field by directly and 
appropriately including gateway communities.
    Leaders in gateway communities are faced with the daily tension of 
attempting to balance commerce and conservation, of preserving enduring 
wildness while enhancing economic well-being. Our communities will 
survive only if we are constantly ensuring that the needs of nature are 
met while people are allowed to make a living. This tension is of 
course by choice, as those of us who live in rural, gateway locations 
most often would choose to be nowhere else. We feel that this important 
bill will help bridge the gap between today and tomorrow, while 
striving to preserve all that is natural, as well as maintaining the 
character of our communities. A consistent Federal process of inclusion 
of the leaders of gateway communities would improve the process, the 
politics, and the outcome. All we ask is some say in our future.
    If gateway communities are to continue to be healthy partners, it 
is imperative that there be greater collaboration in the planning 
process. Local input should be considered, so as not to make oversights 
in judgments and decisions that could be avoided with true partnership 
relationships. At times decisions are made by Federal land managers 
without much consideration of the impact on the communities, the 
process of fostering healthy relationships or the local economics. The 
communities are left to pick up the pieces and try and fix what becomes 
broken in the process. Such problems could have been averted with 
collaboration at the appropriate time.
    We believe it was never the intent of Congress or the agencies to 
have the personalities of supervisors, superintendents, or other land 
managers determine the level of cooperation between gateway communities 
and the federal lands units. H.R. 585 would not compel any manager to 
talk to coalitions of gateway communities or dictate the terms of 
partnerships, but it would clearly declare that the intent of Congress 
is to support much greater cooperation, coordination and communication 
between gateway communities and Federal land managers.
    H.R. 585 would result in closer, more productive cooperative 
relationships between gateways and Federal land managers, benefiting 
both the communities and the federal lands, responding to both national 
and local values. H.R. 585 would enhance the capability of gateways to 
participate more effectively and more meaningfully in agency planning 
processes for the betterment of all.
    It should become law. Mr. Chairman, the passage of this bill, H.R. 
585, is landmark legislation. Its enactment will open a new day for 
gateway communities throughout the nation.
    Thank you for your consideration. We look forward to working with 
you to ensure enactment of this vital legislation.

    Senator Craig. Bob, thank you very much.
    I'm going to turn to my colleague Senator Thomas for any 
questions you may have of this panel.
    Senator Thomas. Well, thank you, Mr. Chairman.
    I guess, Mr. Warren, you indicated that there's no 
relationship now. I'm from Cody, WY. I understand that the 
relationship is there and I don't quite understand what 
difference this is going to make.
    Mr. Warren. Well, that's what I'm saying. Right now, Cody 
is saying that they have a great relationship with Suzanne 
Lewis, but they're saying that that relationship, 5 years ago, 
wasn't quite as good. Also, West Yellowstone indicated that, 5 
years ago, they had some fairly serious issues and now they 
think those issues are being resolved.
    Senator Thomas. But under NEPA and these things, we already 
have a law that you have to communicate with these communities.
    Mr. Warren. Well, it's not just on the NEPA requirements, 
it's just basic daily communication and working with 
communities.
    Senator Thomas. I just am concerned that it's something 
that we already have, and that we're just adding more 
communications to it. I understand the purpose. I couldn't 
agree with you more. I think we already have that, however, and 
we could do it better, but I don't think, frankly, that this is 
going to make a great deal of difference.
    What would you do, Mr. Duerr, to change it?
    Mr. Duerr. As I said, Senator, I support the findings----
    Senator Thomas. I'm talking about the bill.
    Mr. Duerr [continuing]. And the purposes. But the means to 
the end of cooperation is elusive, and it has to do with 
putting some money on the table as an incentive to both the 
gateway communities and the Federal land managers to deal with 
short-term impacts in the long-term public interests. They vary 
from Federal management district to another community to 
another, and it's complicated. But money would help.
    Senator Thomas. Money? Oh, well.
    Mr. Warren. Senator Thomas, I would like to add that 
gateway communities all over the West and the country support 
this bill, so they obviously feel that there is a need for help 
in this area. And that's what we're asking for, is that help.
    Senator Thomas. Well, why wouldn't they support it? I mean, 
it sounds great. I'm just asking you for the details of what it 
does. I'm not persuaded that it changes things.
    Senator Craig. Bob, I know you've listened closely to the 
testimony of others. Why should we expend the money this bill 
authorizes to further empower these communities at the cost of 
reducing on-the-ground management of some of our Federal units? 
We're strapped for dollars now. We're searching for dollars as 
it relates to on-the-ground activities. This bill--we've 
actually not seen a cost factor related to it, because not all 
of the communities have been defined, or at least enumerated as 
to who would qualify, specifically. I mean, how do we deal with 
that justification, in your mind?
    Mr. Warren. Well, as you heard from the several agencies 
that were here today, they had those concerns and, of course, 
that's something that's definitely worth talking about, and 
there may be some way of compromising and satisfying their 
needs. There may be existing training that's ongoing right now 
that gateway communities can be involved in. And so, I think 
that there is room for some adjustment in the Senate version of 
what this bill would be.
    So, I'm not sure that it absolutely has to be mandated in 
the way it's written in the House bill, but I think the intent 
of showing that there is a desire to help communities come up 
to speed on some of these issues is what the important issue is 
here.
    Senator Craig. OK. Some believe that H.R. 585 could provide 
gateway communities some special legal status that would allow 
these communities to contest Federal management plans. If we 
are going to give the gateway communities a special status, why 
shouldn't the Federal land management--or managers get some 
additional input on how local zoning and development decisions 
are made?
    Mr. Warren. Well, already the Federal Government has a 
significant amount of say, because virtually everything that 
happens in communities and counties throughout our country goes 
through some sort of environmental review process. So, that is 
already occurring. And whether, you know, Congress feels 
compelled to transfer that down to the local level, that would 
certainly be up to Congress, but it's occurring already.
    Senator Craig. How would the courts deal with multiple 
gateway communities who disagree on a National Park Service or 
a Forest Service plan? Should the preference go to the largest 
town? Aren't those the kind of disputes best worked out 
informally?
    Mr. Warren. I think that there are things that will always 
be worked out informally. And obviously there is a process; we 
certainly have our courts to review things like that. But if 
you look at the record of gateway communities suing Federal 
lands management agencies--and it's pretty insignificant, it 
almost never happens--and I can't see that this would change 
that in any way, because, obviously, you know, communities are 
strapped for dollars, and they're not going to be making the 
effort to be looking for ways to sue Federal lands management 
agencies.
    Senator Craig. OK.
    Steve, I tend to agree with you that you can't legislate 
good manners or neighborly behavior. You can prescribe it, and 
would hope that it would happen. How do we get our Federal 
managers to be more responsive to communities? You've obviously 
served in that capacity as it relates to a major gateway 
community to a major park.
    Mr. Duerr. Well, Senator, I think it takes a long-term 
commitment by the community and the Federal manager and staff 
to cooperate and work together, do the little things first and 
see if we can't get the big things going in the right direction 
when it gets critical to work on those. But the issue of the 
long-term public interests and the short-term impacts on 
gateway communities at some level, like Yellowstone and 
snowmobiles, like Pinedale and drilling in the desert, I 
believe requires a commitment of resources, of money, to get on 
the ground with adaptive management strategies or alternative 
dispute resolution, so that in the short term you can actually 
deal with the impacts before it's too late. And I support this 
bill. I hope that we can find funding to deal with the short-
term impacts outside of litigation.
    Mr. Warren. Senator, I might add that the original House 
bill actually had $10 million in it for this very purpose. But, 
as we know in the current economy, that's not likely to happen.
    Senator Craig. Well, coming from a large public-lands State 
that is obviously adjacent to--we can't lay claim, although we 
try, at times, to Yellowstone. We have to leave that to the----
    Senator Thomas. Please don't.
    [Laughter.]
    Senator Craig [continuing]. We have to leave that to the 
Senator from Wyoming. We have, by definition, a lot of gateway 
communities as it relates to large public-land tracts and 
resources, and they go through all kinds of economic ups and 
downs, depending on policy changes of those Federal agencies 
and, frankly, their attitudes, on occasion. I have obvious 
sensitivity toward the legislation. I'm trying to figure out a 
way that we get there, and get there in a way that causes these 
better relationships. So, I'm certainly not unwilling to force 
them, if it's possible. But, at the same time, I'm always 
frustrated by agencies who feel their mandate is supreme and 
overpowering to anything around them. And agency managers 
sometimes find themselves in those situations. And usually 
that's when Senator Thomas and I do flying tackles in efforts 
to try to change attitudes.
    But, anyway, we thank you, gentlemen, very much for your 
testimony. We'll see how things move as it relates to these 
pieces of legislation, and we'll be working with you certainly, 
with the Alliance, as it relates to any refinement in this 
legislation before it moves forward.
    Gentlemen, thank you.
    The subcommittee will stand adjourned.
    [Whereupon, at 3:40 p.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

       Responses of Mike Johanns to Questions From Senator Craig
                s. 906--cantwell's fire fighters safety
    Question 1. If we passed this bill (S. 906), is it even possible to 
track the funds expended on each individual related to fire training? 
And so, can you tell me what that would cost?
    Answer. If S. 906 were passed as written, it would not be possible 
with any assurance to tell you the cost of training expended on each 
individual unless there were extensive changes to the current financial 
system. The Forest Service's current financial system and database 
structure are not designed to track this detail of information and to 
do so would require significant modification.
    A Firefighter Safety Budget Line Item would force the tracking of 
expenditures into the financial system, which would add administrative 
complexity. Dollars spent on an activity should not be considered a 
primary measure of success or effectiveness; instead oversight should 
focus on effective policy and integration of safety awareness and 
practices across all firefighter training and activities.
    Question 2. On a percentage basis, how much funding do you believe 
S. 906 would divert from on the ground fire-fighting?
    Answer. It is difficult to estimate the cost of this bill or how 
much funding would divert from on the ground fire-fighting. However, 
implementation would carry significant costs to adjust the financial 
system and database as well as to collect data.
    Question 3. How does that amount of funding compare to the national 
assessments that the Washington ice charges fire preparedness and fire 
suppressions?
    Answer. Implementing S. 906 as written would drive national 
assessments of the fire accounts higher. While it is difficult to 
estimate the specific costs associated with S. 906, the cost of 
implementation could add substantially to those assessments currently 
made.
                    h.r. 585--gateway's communities
    Question 1. Some believe that H.R. 585 could provide gateway 
communities some special legal status that would allow these 
communities to contest federal management plans. Mr. Warren's oral 
testimony indicated that he didn't believe that this bill gave special 
legal status to the gateway communities, but then; in his conclusion, 
he said ``all we are asking for is legal standing. ``
    Could you get your Office of General Counsel to provide us an 
analysis of H.R. 585 and the cooperating agency rules and policies to 
help inform us whether or not providing such standing to a gateway 
community will afford these communities special standing in the courts?
    Answer. H.R. 585 would impose a number of--mandatory procedural 
steps that Federal land managers must take specifically with respect to 
gateway communities, and therefore could create several new legal 
claims that. could be asserted by communities dissatisfied with a 
management plan or project. Under existing law and regulations, gateway 
communities already have the opportunity to comment as part of the 
National Environmental Policy Act (NEPA) analysis for management plans 
and projects. The CEQ regulations define a cooperating agency to mean 
``any Federal agency other than a lead agency which has jurisdiction by 
law or special expertise with respect to any environmental impact 
involved in a proposal . . .'' 40 CFR 1508.5. ``A State or local agency 
of similar qualifications . . . may by agreement with the lead agency 
become a cooperating agency.'' Id. The CEQ regulations also describe 
the responsibilities of the lead agency and cooperating agencies. 40 
CFR 1501.6.
    Section 2(d)(7) would remove the agency's discretion by requiring a 
designation of any gateway community upon the request of that 
community. A gateway community that is dissatisfied with a management 
plan or project for which it has been designated as a cooperating 
agency might be encouraged to challenge the plan or project believing 
that its designation confers the standing necessary to do so. 
Cooperating agency status does not by itself confer standing to 
challenge a NEPA document. Similarly, designation as a cooperating 
agency pursuant section 2(d)(7) of the bill would not, by itself, 
confer standing.
    A State or local entity with standing that is selected as a 
cooperating agency may be able to sue for procedural violations 
associated with its status as a cooperating agency if it is 
dissatisfied with the process. See, e.g., Int'l Snowmobile Mfrs. Ass'n 
v. Norton, 340 F. Supp. 2d 1249,1261-62 (D. Wyo. 2004) (finding NPS did 
not adequately consult with cooperating agency States before changing 
preferred alternative). Such a challenge could be brought under the 
Administrative Procedure Act (APA) when the agency makes its final 
decision as a result of that process, and the cooperating agency can 
establish that it is adversely affected by the final agency decision.
    H.R. 585 could greatly increase the number of management actions 
for which gateway communities are designated as cooperating agencies 
and may also give gateway communities that can establish standing 
another claim to file if they believe they are improperly denied 
cooperator status. H.R. 585 also includes a number of other mandatory 
duties that could give rise to legal claims if a party is able to 
establish standing. Section 2(d) provides that ``[a]t the earliest 
possible time, the relevant Secretary shall solicit the involvement of 
. . . gateway communities,'' ``shall provide . . . at the earliest 
possible time but not later than the scoping process'' a list of 
specific types of information, ``shall provide training sessions,'' 
``shall make available personnel'' upon request, and ``shall 
consolidate and coordinate'' planning processes with those of other 
Federal agencies in order to make it easier for gateway communities to 
participate.
    Each of these mandatory procedural requirements may provide an 
opportunity for a dissatisfied gateway community (or entity that 
believes it is a gateway community) to challenge a land management 
action as ``contrary to law'' under the MA. While the bill may not 
confer any special ``standing'' in an Article III sense, it does appear 
to greatly multiply the number of potential legal claims that might be 
asserted in any APA lawsuit by a dissatisfied gateway community with 
standing.
    To address this issue, the Administration has proposed an amendment 
to H.R. 585 ensure that H.R. 585 does not result in the creation of 
enforceable claims by gateway communities. This amendment is being 
submitted under separate cover by the Department of the Interior.
    Question 2. H.R. 585 currently calls for the Secretaries or a State 
Director of Tourism to designate the Gateway Communities.
    Could you provide a legal analysis that examines the 
constitutionality of a State Direct of Tourism making such a decision 
for the Department of the Interior?
    Answer. Section 2(c) of H.R. 585 defines ``gateway community'' to 
include only those that ``the relevant Secretary (or the head of the 
tourism office for the State)'' determines is significantly affected by 
decisions at issue. The parenthetical inclusion of the head of the 
State tourism office presents potential Constitutional problems under 
the principles of dual sovereignty, the separation of powers, the 
Appointments Clause, and the Supremacy Clause.
    In Printz v. United States, 521 U.S. 898 (1997), the Supreme Court 
held unconstitutional a portion of the Brady Handgun Violence 
Prevention Act that required State law enforcement officers to execute 
its background check requirements. The Court relied on two 
Constitutional principles for this portion of its holding: dual 
sovereignty and the separation of powers.
    First, the Court discussed the division of power between State and 
Federal governments, noting that they exercise concurrent authority, 
``each protected from incursion by the other.'' Id. at 920. The Court 
found that the Brady Act violated this principle by ``conscripting 
state officers'' into Federal service--effectively a ``Federal 
commandeering of state government[]'' that violated State sovereignty. 
Id. at 925.
    Second, the Court also discussed the division of power between the 
branches of the Federal government, and the ``separation and 
equilibration'' of their powers. Id. at 922. The Constitution provides 
that the President, either himself or through his appointees, is the 
one who ``shall take Care that the Laws be faithfully executed.'' Id., 
quoting U.S. Const. art. II,  3. The Court found that the Brady Act 
violated this principle by delegating enforcement responsibility to 
State law enforcement officers who lacked any ``meaningful Presidential 
control.'' Id. The unity of the Executive Branch, and the vigor and 
accountability that go along with it, `would be shattered, and the 
power of the President would be subject to reduction, if Congress could 
act as effectively without the President as with him, by simply 
requiring state officers to execute its laws.'' Id. at 922-23.
    The delegation of authority to the head of the State Tourism office 
in H.R. 585 appears to give rise to similar questions. Unlike the 
statute at issue in Printz, H.R. 585 does not compel the head of the 
State Tourism office to play any role in the designation of gateway 
communities. The infringement of State sovereignty appears less severe 
for this reason, and inaction by the head of the State Tourism office 
serves only to preserve the status quo. See Lac Courte Oreilles Band of 
Lake Superior Chippewa Indians of WI v. United States, 259 F. Supp. 2d 
783, 798-99 (W.D. Wis. 2003) (holding the Indian Gaming Regulatory 
Act's requirement of gubernatorial concurrence in administrative 
decisions did not offend dual sovereignty). Because the head of the 
State Tourism office may choose to refuse to exercise his or her role 
under the bill with potentially little impact on its implementation, 
the current wording probably does not implicate dual sovereignty 
concerns.
    Even so, the bill may implicate some of the governmental 
accountability concerns expressed by the Court in Printz: ``even when 
the States are not forced to absorb the costs of implementing a Federal 
program, they are still put in the position of taking the blame for its 
burdensomeness and for its defects.'' Id. at 530. H.R. 585 could 
perhaps raise some of the same concerns, because a State officer could 
face blame for improperly implementing the Federal definition of a 
``gateway community'' if someone is dissatisfied at his or her 
designation (or failure to designate) a particular community.
    The bill does appear to present a significant separation of powers 
problem. Congress appears to be delegating the implementation of its 
definition of ``gateway community,'' which is an Executive function, to 
a State official who is not subject to any Presidential control. There 
would be little problem if the head of the State Tourism office 
presented suggestions and the Secretary had ultimate determination 
authority. But as currently drafted, the bill appears to delegate 
unrestricted implementation authority to a State official, which 
appears to be an improper diminishment of the Federal executive power.
    This may present a problem not only under the general 
Constitutional separation of powers framework discussed in Printz, but 
also under the Appointments Clause, which provides that the President 
shall appoint all ``Officers of the United States.'' U.S. Const. art. 
II,  2. Persons not appointed by the President may not exercise 
executive power that is reserved for officers of the United States. See 
Confederated Tribes of Siletz Indians v. United States, 110 F.3d 668, 
696 (9th Cir. 1997). One court has stated that granting such authority 
to a State officer impermissibly infringes Executive Branch power if 
the State officer exercises ``significant authority'' under the Act and 
is granted ``primary responsibility'' for designation. Id. at 697. In 
that case, the court ultimately found that the Indian Gaming Regulatory 
Act's provision requiring that the governor of State concur with the 
Secretary of the Interior's determination regarding Indian gaming 
within a State was Constitutionally permissible, because the governor 
had no authority to act on his own, and was merely making a 
determination on behalf of the state's interest, and not with respect 
to the Federal interest. Id. at 698.
    H.R. 585 presents a more problematic situation that appears to run 
afoul of both the separation of powers between the Executive and 
Legislative Branches and the Appointments Clause. Because the head of 
the State Tourism office possesses independent authority to act on his 
or her own, and shares primary and equal responsibility with the 
Department of the Interior in designating gateway communities, the bill 
appears to improperly grant Executive power to a State officer.\1\
---------------------------------------------------------------------------
    \1\ As currently drafted, it is not clear what would happen under 
H.R. 585 if the Secretary and the head of the state tourism office 
disagreed as to whether a community was a ``gateway community.'' If a 
community can meet the definition based on the head of the state 
tourism office's determination even when the Secretary disagrees, then 
the state official's implementation of the law will essentially 
override the federal official's. This may present another 
Constitutional question under the Supremacy Clause, U.S. Const. art. 
VI,  2, which provides that federal law ``shall be the supreme Law of 
the Land.''
---------------------------------------------------------------------------
    A framework that permitted the head of the State office of tourism 
to present suggestions to the Secretary would appear to better 
withstand separation of powers concerns, so long as ultimate decision 
authority rested in the Secretary, an appointed official. As currently 
drafted however, the bill appears to delegate unrestricted 
implementation authority to a State official.
             h.r. 3981--tahoe national forest land exchange
    Question 1. I want to continue a discussion that we had the last 
time you testified before this committee. At that time, I requested 
staff gather data on the number of administrative and legislated 
exchanges each year since 1995. The data we have collected shows that, 
in 1995 to 1998, the Forest Service completed an average of about 100 
administrative exchanges each year. The number has since tumbled to a 
low of only 14 administrative exchanges in 2005. I understand from 
staff that you are going to tell me the real number is 35 
administrative exchanges in 2005. I don't think the actual number is as 
important as the trend line. The Land Acquisition and Management 
budget, which covers more than just administrative exchanges, has grown 
from about. $40 million in 1996 to as high as $156 million in 2000 and 
is back to about $63 million in 2005.
    Can you give me one good reason we should expend $63 million in 
2005 to accomplish only 35 administrative exchanges?
    Answer. As a point of clarification, The Forest Service Land 
Acquisition Program only provides for the acquisition of lands through 
the Land and Water Conservation Fund (LWCF) program. In FY 2005, the 
LWCF program was funded at $61 million after rescission.
    In FY 2005, the Landownership Management Program was funded at 
$92.1 million (after rescission) for the following activity areas: Land 
Exchanges, Title Management, Boundary Management, and Non-Recreation 
Special Uses. Administrative benefits from this program are achieved by 
minimizing land survey and fire management costs, reducing NFS 
boundaries, protecting property rights, acquiring rights-of-way, 
authorizing special uses and simplifying road management.
    Of the $92.1 million appropriated for the Landownership Management 
Program, we projected that around $18 million (roughly 20%) would be 
expended to complete land exchanges, with a portion covering some land 
sales expenses as well. This 20%, along with cost sharing by non-
federal exchange parties allowed for the completion of 35 exchanges and 
over 35,708 acres acquired and 13,579 acres conveyed (plus an 
additional 293 million acres of subsurface mineral rights underlying 
two Florida state forests). This has been the level of funding for NFLM 
and the land exchange component for the last three years ($91.6 FY04 
and $92.4 FY03).
    While there have been fewer land exchanges completed in the last 
five years than prior to 2000, there has been an increase in the number 
of completed land sales, including administrative site conveyances, and 
land purchases over this same time frame. The land exchange, sale, and 
purchase programs all rely on the same realty and appraisal staff. In 
many locations, this same staff is also supporting the special uses 
programs. Resource specialists providing support for NEPA and CERCLA 
assessments are also responsible for increasing numbers of fuels 
management and energy related projects. Often, land exchange is not the 
highest priority work to be accomplished, and unless significant costs 
are borne by the non-federal exchange party, exchanges may have to be 
postponed or foregone entirely.
    The Office of Inspector General and the General Accountability 
Office audited the FS and BLM land exchange programs beginning in 1996. 
These audits identified numerous deficiencies, and as a result, 
significant changes were made to the program. Improvements include: a 
more formal assessment of the feasibility of an exchange early in the 
process, oversight by the Washington Office of individual cases over 
$500,000 in value, oversight of all cases by Regional Offices, a 
reorganization of appraisal staff to ensure independent valuation 
products, and updating of Forest Service directives. While these and 
other required controls may have lengthened the process, we believe 
that they ensure financial accountability and protect the public 
interest.
    We have recently eliminated the requirement for Washington Office 
case oversight, to be replaced by periodic Regional program reviews. 
This is expected to streamline the overall review process while 
ensuring continued Regional oversight and control.
    Question 2. I would like you to have your people provide us with 
the following data: the number of administrative and legislative 
exchanges; the number of acres of each of those types of exchanges; and 
the time taken for each administrative and legislated exchange 
undertaken between Fiscal Year 1995 through the 2nd quarter of Fiscal 
Year 2006 by forest and year.
    Answer. We have enclosed a table that shows information from 
``management attainment reports'' (MAR) for fiscal years 1992 through 
2005 with the following information: number of exchanges, acres and 
value of federal land conveyed, and acres of non-federal land acquired. 
Included is information from budget justifications for planned 
(estimated) budget for land exchanges within the NFLM line item in the 
three fiscal years for which such estimates have been made. The total 
NFLM line item amount is available only for fiscal years 2000 through 
2005. Prior to 2000, this line item is not comparable as it contained 
different work items.
    The Forest Service does not normally collect information on whether 
exchanges are accomplished administratively or legislatively, or on the 
time required for accomplishing exchanges. However, in response to a 
special request, information for all regions and forests (except for 
the Southern Region) was compiled for the years 1995-2004. The data 
indicates legislated land exchanges occurred in 27 of 468 cases, or 
5.8% of all exchanges.
    The data also showed that it takes an average of 2.5 years to 
complete an exchange. This time frame begins with the signing of the 
Agreement to Initiate (ATI) and ends with the final recordation of 
deeds. Months or even years of discussions sometimes lead up to formal 
initiation. The ATI specifies the sharing of costs, requirements of 
title, appraisal, survey, and general process, and the estimated 
schedule for completion of necessary processing steps. Depending on the 
complexity of the exchange, and considering unforeseen circumstances, 
the time schedule may be short or long. The primary drivers in 
completing a land exchange, large or small, are the level of commitment 
and cooperation exercised by the exchange parties, as well as the 
funding and skills available to complete all tasks. We would like to 
meet with the Subcommittee staff to discuss this information in further 
detail.
    Question 3. I would also like on a regional basis and for the 
Washington ice to know the number of employees (FTE s) at all levels of 
the agency that work on land exchanges as a principle part of their 
duties for each year.
    Answer. It is difficult to quantify precisely how many Forest 
Service FTEs work principally on land exchanges each year, for the same 
reason that it is difficult to extract land exchange funding from other 
activities funded within the Land Management Program area. At the 
Forest and District levels, employees funded in the lands program 
perform a variety of duties depending upon the Forest's priorities. 
These duties include land exchanges, land purchases, land sales, title 
management, boundary management, non-recreation special uses, trespass 
cases, and so forth. At Regional Offices (RO), we estimate an average 
of 1 FTE per region is assigned to land exchanges in a given year, 
depending on priorities. The Washington Office (WO) has 1 FTE assigned 
to land exchanges.
    Question 4. Joel--I have to presume, given the number of years 
these two exchanges have languished, that the Forest Service either 
doesn't want these exchanges, or thinks them unwarranted. I want a 
straight yes or no answer: Does the Forest Service support these 
exchanges? I will take the answer ``we do not oppose'' as a no.
    Answer. Yes, we are interested in acquiring the non-federal lands 
proposed in this exchange. However, all exchanges are now being 
processed by the R5 Regional Land Adjustment Team and require each 
exchange proposal to compete with every other exchange proposal in 
California. Exchanges that proceed are those with the greatest net 
public value. Consequently, small exchanges such as these may not be 
funded through the administrative prioritization process, considering 
their size and resources values.

                                                                     LAND EXCHANGES
                                                                       [1992-2005]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                  Acres of Non-      NFLM Planned for
     Fiscal Year        Number of Land      Acres of Federal        Value of Federal  Land         Federal Land       Exchange  $ in       Total NFLM
                           Exchanges          Land Conveyed               Exchanged                  Acquired           thousands
--------------------------------------------------------------------------------------------------------------------------------------------------------
        2005                    35               306,435                $46,683,318                 35,708\6\            $18,060            $92,129
        2004                    29                 8,074                $32,687,554                    12,874            $76,799            $91,550
        2003                    26                 7,654                $34,425,813                    25,981            $18,528            $92,411
        2002                    31                 7,514                $14,177,066                    10,915                               $88,434
        2001                    24                25,340                $41,830,290                    35,132                               $86,418
        2000                    63                34,522                $94,962,307                 79,295\5\                               $82,565
        1999                 83\3\                83,896               $134,647,357                316,037\4\
        1998                    86                27,420                $96,843,272                    69,938
        1997                    96               133,870               $224,123,000                   244,178
        1996                    93                32,691                $99,389,000                    65,848
        1995                   116             91,884\1\                $78,118,675                 98,405\2\
        1994                   117                42,000                $46,200,000                    75,757
        1993                   113                54,680                $61,000,000                    81,956
        1992                   109                38,574                $37,800,000                    69,102
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ includes 15,420 acres of subsurface mineral interest, R-10
\2\ includes 14,914 acres of subsurface mineral interest, R-10
\3\ 83 cases is equal to 77 fee cases and 6 mineral cases
\4\ includes fee and partial acres acquired
\5\ non-federal acres as reported in MARS
\6\ includes the State of Florida, R-8 exchange of surface and subsurface figures shows for P105 are from digests from the Regions; figures should but
  may not match those reported in MARS

                                 ______
                                 
       Responses of Lynn Scarlett to Questions From Senator Craig
                     h.r. 585--gateway communities
    Question 1. Some believe that H.R. 585 could provide gateway 
communities some special legal status that would allow these 
communities to contest federal management plans. Mr. Warren's oral 
testimony indicated that he didn't believe that this bill gave special 
legal status to the gateway communities, but then, in his conclusion, 
he said ``all we are asking for is legal standing.''
    Could you get your solicitor to provide us an analysis of H.R. 585 
and the cooperating agency rules and policies to help inform us whether 
or not providing such standing to a gateway community will afford these 
communities special standing in the courts?
    Answer. H.R. 585 would impose a number of mandatory procedural 
steps that Federal land managers must take specifically with respect to 
gateway communities, and therefore could create several new legal 
claims that could be asserted by communities dissatisfied with a 
management plan or projects. Under existing law and regulations, 
gateway communities already have the opportunity to comment as part of 
the National Environmental Policy Act (NEPA) analysis for management 
plans and projects. The CEQ regulations define a cooperating agency to 
mean ``any Federal agency other than a lead agency which has 
jurisdiction by law or special expertise with respect to any 
environmental impact involved in a proposal . . .'' 40 CFR 1508.5. ``A 
State or local agency of similar qualifications . . . may by agreement 
with the lead agency become a cooperating agency.'' Id. The CEQ 
regulations also describe the responsibilities of the lead agency and 
cooperating agencies. 40 CFR 1501.6.
    Section 2(d)(7) would remove the agency's discretion by requiring a 
designation of any gateway community upon the request of that 
community. A gateway community that is dissatisfied with a management 
plan or project for which it has been designated as a cooperating 
agency might be encouraged to challenge the plan or project believing 
that its designation confers the standing necessary to do so. 
Cooperating agency status does not by itself confer standing to 
challenge a NEPA document. Similarly, designation as a cooperating 
agency pursuant section 2(d)(7) of the bill would not, by itself, 
confer standing.
    A State or local entity with standing that is selected as a 
cooperating agency may be able to sue for procedural violations 
associated with its status as a cooperating agency if it is 
dissatisfied with the process. See, e.g., Int'l Snowmobile Mfrs. Ass'n 
v. Norton, 340 F. Supp. 2d 1249,1261-62 (D. Wyo. 2004)(finding NPS did 
not adequately consult with cooperating agency States before changing 
preferred alternative). Such a challenge could be brought under the 
Administrative Procedure Act (APA) when the agency makes its final 
decision as a result of that process, and the cooperating agency can 
establish that it is adversely affected by the final agency decision.
    H.R. 585 could greatly increase the number of management actions 
for which gateway communities are designated as cooperating agencies 
and may also give gateway communities that can establish standing 
another claim to file if they believe they are improperly denied 
cooperator status. H.R. 585 also includes a number of other mandatory 
duties that could give rise to legal claims if a party is able to 
establish standing. Section 2(d) provides that ``[a]t the earliest 
possible time, the relevant Secretary shall solicit the involvement of 
. . . gateway communities,'' ``shall provide . . . at the earliest 
possible time but not later than the scoping process'' a list of 
specific types of information, ``shall provide training sessions,'' 
``shall make available personnel'' upon request, and ``shall 
consolidate and coordinate'' planning processes with those of other 
Federal agencies in order to make it easier for gateway communities to 
participate.
    Each of these mandatory procedural requirements may provide an 
opportunity for a dissatisfied gateway community (or entity that 
believes it is a gateway community) to challenge a land management 
action as ``contrary to law'' under the APA. While the bill may not 
confer any special ``standing'' in an Article III sense, it does appear 
to greatly multiply the number of potential legal claims that might be 
asserted in any APA lawsuit by a dissatisfied gateway community with 
standing.
    To address this issue, the Department has proposed an amendment to 
H.R. 585, provided in a separate letter, to ensure that the bill does 
not result in the creation of enforceable claims by gateway 
communities.
    Question 2. H.R. 585 currently calls for the Secretaries or a State 
Director of Tourism to designate the Gateway Communities.
    Could you provide a legal analysis that examines the 
constitutionality of a State Direct of Tourism making such a decision 
for the Department of the Interior?
    Answer. Section 2(c) of H.R. 585 defines ``gateway community'' to 
include only those that ``the relevant Secretary (or the head of the 
tourism office for the State)'' determines is significantly affected by 
decisions at issue. The parenthetical inclusion of the head of the 
State tourism office presents potential Constitutional problems under 
the principles of dual sovereignty, the separation of powers, the 
Appointments Clause, and the Supremacy Clause.
    In Printz v. United States, 521 U.S. 898 (1997), the Supreme Court 
held unconstitutional a portion of the Brady Handgun Violence 
Prevention Act that required State law enforcement officers to execute 
its background check requirements. The Court relied on two 
Constitutional principles for this portion of its holding: dual 
sovereignty and the separation of powers.
    First, the Court discussed the division of power between State and 
Federal governments, noting that they exercise concurrent authority, 
``each protected from incursion by the other.'' Id. at 920. The Court 
found that the Brady Act violated this principle by ``conscripting 
state officers'' into Federal service--effectively a ``Federal 
commandeering of state government[]'' that violated State sovereignty. 
Id. at 925.
    Second, the Court also discussed the division of power between the 
branches of the Federal government, and the ``separation and 
equilibration'' of their powers. Id. at 922. The Constitution provides 
that the President, either himself or through his appointees, is the 
one who ``shall take Care that the Laws be faithfully executed.'' Id., 
quoting U.S. Const. art. II,  3. The Court found that the Brady Act 
violated this principle by delegating enforcement responsibility to 
State law enforcement officers who lacked any ``meaningful Presidential 
control. Id. The unity of the Executive Branch, and the vigor and 
accountability that go along with it, ``would be shattered, and the 
power of the President would be subject to reduction, if Congress could 
act as effectively without the President as with him, by simply 
requiring state officers to execute its laws.'' Id. at 922-23.
    The delegation of authority to the head of the State Tourism office 
in H.R. 585 appears to give rise to similar questions. Unlike the 
statute at issue in Printz, H.R. 585 does not compel the head of the 
State Tourism office to play any role in the designation of gateway 
communities. The infringement of State sovereignty appears less severe 
for this reason, and inaction by the head of the State Tourism office 
serves only to preserve the status quo. See Lac Courte Oreilles Band of 
Lake Superior Chippewa Indians of WI v. United States, 259 F. Supp. 2d 
783, 798-99 (W.D. Wis. 2003) (holding the Indian Gaming Regulatory 
Act's requirement of gubernatorial concurrence in administrative 
decisions did not offend dual sovereignty). Because the head of the 
State Tourism office may choose to refuse to exercise his or her role 
under the bill with potentially little impact on its implementation, 
the current wording probably does not implicate dual sovereignty 
concerns.
    Even so, the bill may implicate some of the governmental 
accountability concerns expressed by the Court in Printz: ``even when 
the States are not forced to absorb the costs of implementing a Federal 
program, they are still put in the position of taking the blame for its 
burdensomeness and for its defects.'' Id. at 530. H.R. 585 could 
perhaps raise some of the same concerns, because a State officer could 
face blame for improperly implementing the Federal definition of a 
``gateway community'' if someone is dissatisfied at his or her 
designation (or failure to designate) a particular community.
    The bill does appear to present a significant separation of powers 
problem. Congress appears to be delegating the implementation of its 
definition of ``gateway community,'' which is an Executive function, to 
a State official who is not subject to any Presidential control. There 
would be little problem if the head of the State Tourism office 
presented suggestions and the Secretary had ultimate determination 
authority. But as currently drafted, the bill appears to delegate 
unrestricted implementation authority to a State official, which 
appears to be an improper diminishment of the Federal executive power.
    This may present a problem not only under the general 
Constitutional separation of powers framework discussed in Printz, but 
also under the Appointments Clause, which provides that the President 
shall appoint all ``Officers of the United States.'' U.S. Const. art. 
II,  2. Persons not appointed by the President may not exercise 
executive power that is reserved for officers of the United States. See 
Confederated Tribes of Siletz Indians v. United States, 11.0 F.3d 668, 
696 (9th Cir. 1997). One court has stated that granting such authority 
to a State officer impermissibly infringes Executive Branch power if 
the State officer exercises ``significant authority'' under the Act and 
is granted ``primary responsibility'' for designation. Id. at 697. In 
that case, the court ultimately found that the Indian Gaming Regulatory 
Act's provision requiring that the governor of State concur with the 
Secretary of the Interior's determination regarding Indian gaming 
within a State was Constitutionally permissible, because the governor 
had no authority to act on his own, and was merely making a 
determination on behalf of the state's interest, and not with respect 
to the Federal interest. Id. at 698.
    H.R. 585 presents a more problematic situation that appears to run 
afoul of both the separation of powers between the Executive and 
Legislative Branches and the Appointments Clause. Because the head of 
the State Tourism office possesses independent authority to act on his 
or her own, and shares primary and equal responsibility with the 
Department of the Interior in designating gateway communities, the bill 
appears to improperly grant Executive power to a State officer.\1\
---------------------------------------------------------------------------
    \1\ As currently drafted, it is not clear what would happen under 
H.R. 585 if the Secretary and the head of the state tourism office 
disagreed as to whether a community was a ``gateway community.'' If a 
community can meet the definition based on the head of the state 
tourism office's determination even when the Secretary disagrees, then 
the state official's implementation of the law will essentially 
override the federal official's. This may present another 
Constitutional question under the Supremacy Clause, U.S. Const. art. 
VI,  2, which provides that federal law ``shall be the supreme Law of 
the Land.''
---------------------------------------------------------------------------
    A framework that permitted the head of the State office of tourism 
to present suggestions to the Secretary would appear to better 
withstand separation of powers concerns, so long as ultimate decision 
authority rested in the Secretary, an appointed official. As currently 
drafted however, the bill appears to delegate unrestricted 
implementation authority to a State official.
     Responses of Lynn Scarlett to Questions From Senator Murkowski
    Question 1. The Department's testimony suggests that the definition 
of a ``gateway community'' needs further refinement. I would agree, but 
your testimony doesn't take account of the fact that in my State of 
Alaska many communities that border on public lands are unincorporated, 
which is to say that these communities are neither cities nor part of 
one of Alaska's organized boroughs. It would seem to me that the State 
of Alaska should be permitted to exercises that powers that the gateway 
local governments ordinarily would in this instance. Would you consider 
recommending this change?
    Answer. The inclusion of the states in the definition of gateway 
communities would be one means of addressing the challenge of a 
requirement that would include unincorporated communities. Mandates to 
include an unincorporated community are problematic and could result in 
legal challenges because the Federal land management agency would not 
have an elected or appointed official through which we could ensure the 
representative engagement of the entire community. For this reason, the 
Department has proposed an amendment to limit the definition of a 
gateway community only to those that are incorporated. Such an 
amendment would not interfere with our goal to engage all interested 
and affected communities, including those that are unincorporated, in 
our land use planning process.
    With regard to the inclusion of states, as we mentioned in our 
testimony, existing Department-wide guidance at 516 DM 2.5 requires all 
agencies to invite states to participate as cooperating agencies during 
development of an environmental impact statement under National 
Environmental Policy Act. Through a state's participation as a 
cooperating agency, a state could certainly work to ensure that 
unincorporated communities are represented through this process.
    Question 2. I'm troubled by the Department's comment on Section 
2(d)(4) which would make federal personnel available to gateway 
communities to help them meaningfully participate in planning efforts. 
I understand that federal resources are limited, but I would also 
suggest that meaningfully involving stakeholders in the planning 
process is or should be a key federal responsibility. If the federal 
land management agencies are going to undertake planning processes 
shouldn't they devote what resources are necessary to do it right, with 
full engagement from the affected communities?
    Answer. We agree that meaningful involvement involving stakeholders 
in the planning process is an important Federal responsibility. We 
believe that other provisions in the bill and in existing Federal and 
agency regulations and guidance provide the necessary processes to 
ensure such engagement. The provision in section 2(d)(4), however, 
differs in that it mandates that Federal personnel take temporary work 
details to gateway communities to assist with planning efforts. The 
number of gateway communities that would be eligible to make the 
request for technical assistance is likely to far exceed the number of 
Federal planning experts who would be available in the field offices to 
provide the assistance. We believe this provision is simply not 
feasible, could result in competition among gateway communities for 
limited Federal personnel, could adversely affect the ability of 
Federal agencies to work with many gateway and other communities on 
ongoing, priority planning projects, and could result in significant 
delays of Federal projects as Federal personnel are diverted from their 
planning duties.
    Question 3. I think your testimony notes that 62% of my State of 
Alaska is owned by the federal government. Sometimes that makes 
Alaskans happy, sometimes not. But one thing that deeply concerns many 
of my constituents is the prospect that the federal government will 
exert or influence the control of land use off of the federal lands.
    Would anything in H.R. 585 give the federal government a lever to 
control land use in the gateway communities?
    Answer. H.R. 585 does not appear to provide the Federal government 
with the authority to make decisions concerning lands that are under 
state, tribal, or local jurisdiction or under private ownership. 
Through provisions that permit greater coordination of land use and 
allow for technical assistance by Federal personnel, H.R. 585 could 
provide for greater Federal participation in State or local land use 
planning, but this participation would occur at the discretion of the 
gateway community.
                                 ______
                                 
        Responses of Steve Duerr to Questions From Senator Craig
    Question 1. I am hoping you can help me to develop more empathy for 
``national interests `` when the national interest groups gang-up with 
the agency's inside-the-beltway policy-makers to make decisions that 
devastate these small local communities. It seems to me the existing 
paradigm more than protects the ``national interests ``. So why do the 
groups representing ``the national interests `` so fear this 
legislation?
    Answer. I cannot speak for such groups. I would counsel the 
subcommittee against painting all national organizations with a broad 
brush. Certainly, there are some that have little sensitivity to local 
issues and needs. Others, however, are very cognizant of local issues 
and work hard to balance those with issues of national importance--
particularly those that employ people who are part of our communities 
and have a stake in our economic well-being. For example, the National 
Parks Conservation Association has worked closely with the local 
community around Jackson to develop a transportation system that works 
for Grand Teton National Park and the surrounding community. My 
impression is they do not fear legislation if that legislation makes 
sense. What concerns me is the potential for legislation that promises 
much more than it can possibly deliver, ultimately leading to 
frustration and added tension. In my experience, mandates to cooperate 
do not produce cooperation, nor do checklists that ultimately serve as 
a ``gotcha''. They are not what we need when it comes to long-term 
solutions. The fact that an agency checks all the required boxes does 
not mean communities will be any better off, or that dialogue will 
improve or lead to sustainable results or compromises. What is needed 
are appropriate early-and mid-career training opportunities for federal 
managers and for gateway community officials on how to work together 
productively in their roles. Separate funding to hire facilitators or 
mediators would also be useful at times. The last thing that anyone who 
cares about what happens in and around national parks and other federal 
lands needs, whether they come from a national or a local perspective, 
is a product that produces a false promise of progress. That will only 
lead to frustration.
    Question 2. Having read your testimony, I am not sure H.R. 585 is a 
``one size fits all'' bill. As I see it, the bill directs the various 
federal agencies to give gateway communities improved access to their 
respective planning processes, which are all governed by NEPA. Each 
individual agency's NEPA regulations and policies tell anyone that is 
interested how to comment and communicate with the agency. Nothing in 
the bill says the National Park Service has to utilize the Forests 
Service's process or visa versa, so can you help me better understand 
this concern?
    Answer. The missions of the Park Service, the Forest Service, the 
Bureau of Land Management and the Fish and Wildlife Service are all 
different. The lands they manage are subject to vastly different uses. 
Their relationship to each other and the issues affecting specific 
units and gateway communities also differ. The financial and staff 
resources available to each, also vary. For example, as I cited in my 
written testimony, the bill assumes that the federal land management 
units concerned will be able to provide a land use planner to gateway 
communities upon request. In fact, national parks are so understaffed, 
that they may not have that kind of person available. Also, the vast 
majority of national park units are historic in nature. Does anyone 
really think they are likely to employ land use planners? Something 
else that bothers me about this kind of requirement is that it's not 
necessary. The authority already exists for national parks to provide 
such assistance where it makes sense, and many already do. Finally, I 
would hate to see federal agencies interpret a bill like this as only 
requiring them to provide certain kinds of assistance, like a land use 
planner. By so narrowly defining what ``cooperation'' should look like, 
it's possible the bill would, indeed, produce a very narrow vision of 
how gateway communities and federal land managers should interact. That 
would be truly unfortunate.
    Question 3. Some believe that H.R. 585 could provide gateway 
communities some special legal status that would allow these 
communities to contest federal management plans. Mr. Warren's oral 
testimony indicated that he didn't believe that this bill gave special 
legal status to the gateway communities, but then, in his conclusion, 
he said ``all we are asking for is legal standing. ``
    Could you get your legal counsel to provide us with an analysis of 
H.R. 585 and the cooperating agency rules and policies to help inform 
us whether or not providing such standing to a gateway community will 
afford these communities special standing in the courts?
    Answer. I suggest that the subcommittee ask this question of the 
Council on Environmental Quality, which is probably in the best 
position to analyze the standing issues you raise. It is my impression, 
however, that CEQ already requires federal agencies to invite local 
communities to participate as cooperators. While cooperating agency 
status is important, gateway communities must be aware of the work that 
accompanies such status. Once granted, true cooperation is necessary by 
all participants.
    Question 4. H.R. 585 currently calls for the Secretaries or a State 
Director of Tourism to designate the Gateway Communities.
    Could you provide a legal analysis that examines the 
constitutionality of a State Director of Tourism making such a decision 
for either the Department of Agriculture or the Department of the 
Interior?
    Answer. I am not in a position to provide the kind of 
constitutional analysis you request, but I'm not certain of the logic 
behind this provision.
       Response of Steve Duerr to Question From Senator Murkowski
    Question 1. I appreciate your comment that ``cooperation cannot be 
legislated. `` I would like to frame the question another way. In any 
large organization, whether it is General Motors or the Interior 
Department, managers tend to respond to the criteria on which their 
performance will be evaluated. Wouldn't you think that federal land 
managers were given a set of uniform expectations about how to work 
with gateway communities and were measured on achieving those 
objectives, there would be greater coordination and less confrontation 
on important land use decisions.
    Answer. Your question makes the kind of point I attempted to make 
in my testimony. I think it is very important that federal managers be 
evaluated based on how well they interact with gateway communities and 
other stakeholders. They need to be provided the skills to engage in 
such interaction, and they ought to be held accountable for how well 
they communicate and deal with gateway communities and others in 
performance reviews. Federal land managers need to recognize the very 
real impact that some of their decisions can have on our communities. 
But as written, H.R. 585 will not accomplish that.
                                 ______
                                 
        Responses of Bob Warren to Questions From Senator Craig
    Question 1. As I understand cooperating agency status, the program 
requires the cooperating agency to invest more than just time into 
going to meetings. It requires they provide the agencies with specific 
research or community developed alternatives to ongoing planning 
efforts. I know that Carbon County, Wyoming, which has cooperating 
agency status on the Medicine Bow National Forest planning effort, 
invested at least a hundred thousand dollars to develop an alternative 
for the forest to consider in its planning process.
    I wonder how many gateway communities are willing to make that kind 
of monetary investments when part of this legislation tells me these 
communities don't even have the money to spend to understand the 
various agency processes they need to understand to participate as a 
cooperating agency?
    Answer. We realize that it may strain the budgets of some 
communities to participate in the NEPA process as cooperating agencies. 
Some of them may indeed decide not to participate as cooperating 
agencies for financial reasons.
    We do not believe, however, that this is reason not to enact H.R. 
585, for the following reasons: First, providing for gateway 
communities to be treated as cooperating agencies for NEPA purposes is 
only one part of H.R. 585. Section 2 (d) directs the relevant Secretary 
to solicit the involvement of elected and appointed gateway officials 
in the development of a variety of agency plans, programs and 
regulations that do not necessarily involve NEPA. Furthermore, we think 
the requirements in this section for non-technical agency explanations 
of the purposes and anticipated impact of agency plans and policies, 
for gateway access to agency training programs, for technical 
assistance and for interagency cooperation and coordination will 
especially benefit gateway communities with limited budgets more than 
others with larger budgets.
    We further believe that the fiscal capacity of gateway communities 
to participate as cooperating agencies should not be prejudged. Even if 
a gateway community budget is limited, it may be possible for that 
community to receive support from the State or from private sources 
that would enable it to participate as a cooperating agency. We would 
urge Congress not to presume any community's determination to overcome 
limited fiscal resources when vital questions affecting its future are 
perceived to be at stake.
    Finally, we would respectfully note that the thrust of Section 
2(d)(7) of H.R. 585 (``Treatment as Cooperating Agencies) is similar to 
S. 301 in the 107th Congress and S. 372 in the 108th Congress, 
identical bills entitled the ``State and Local Participation Act,'' 
which you and Senator Thomas sponsored. That legislation would have 
amended NEPA simply ``to require that Federal agencies consult with 
State agencies and county and local governments on environmental impact 
studies.'' We would be glad to consider substituting language similar 
to S. 301/372 for the current Section 2(d)(7) if that would clarify 
doubts or uncertainties concerning this section.
    Question 2. Some believe that H.R. 585 could provide gateway 
communities some special legal status that would allow these 
communities to contest federal management plans. Your oral testimony 
indicated that you didn't believe that this bill gave special legal 
status to the gateway communities, but then, in your conclusion, you 
said ``all we are asking for is legal standing. ``
    Could you get your legal counsel to provide us with an analysis of 
H.R. 585 and the cooperating agency rules and policies to assure us 
that providing such standing to a gateway community will not afford 
these communities special standing in the courts?
    Answer. The limited budget of the NAGC precludes us from using 
legal counsel at this time, so we hope the following explanation is 
sufficiently responsive to this question. It is, of course, very 
difficult to prove a negative, i.e. that H.R. 585 will not afford 
special legal standing to contest Federal management plans. We are not 
aware, however, that cooperating agencies under NEPA at present have 
any special legal standing and would request any information or 
precedents to the contrary. We suggest, in fact, that participation as 
cooperating agencies would make gateway communities less rather than 
more likely to litigate Federal management plans. Such participation 
will make these communities will make gateways more a meaningful part 
of the process as more informed participants. We respectfully suggest 
that by bringing gateways into the planning process earlier and giving 
them a significant opportunity to participate, they will be more 
understanding of what is being done and, therefore, less likely to 
contest final plans in court. We again refer to S. 301/372 as cited 
above and reiterate our willingness to consider substituting similar 
language for the cooperating agency language in H.R. 585 if that would 
clarify and resolve this concern.
    (NOTE: Our request for ``legal standing'' in our earlier oral 
testimony was intended only for rhetorical purposes and should not be 
construed as a request for actual justiciable status. We regret any 
indication to the contrary.)
    Question 3. H.R. 585 currently calls for the Secretaries or a State 
Director of Tourism to designate the Gateway Communities.
    Could you provide a legal analysis that examines the 
constitutionality of a State Direct of Tourism making such a decision 
for either the Department of Agriculture or the Department of the 
Interior?
    Answer. Again, we regret not being able to provide a legal analysis 
and ask your indulgence for this non-legal explanation. It appears to 
us this question has several parts. First, is the Director of Tourism 
the appropriate State official to designate a gateway community for 
purposes of this legislation. While State Tourism Offices are well 
qualified to judge the degree of interdependency between a community 
dependent on visitors coming for recreation and tourism and the Federal 
land facility that attracts those visitors, we recognize some gateways 
may be more dependent on grazing or mineral extraction from the Federal 
land facility. It may be more appropriate in those cases for another 
State agency to designate the community as a gateway. For this reason, 
we accept that it may be better to give the Governor of a State the 
authority to make that designation and decide which State agencies 
should be used. The next question is, then, whether it is appropriate 
for any State official to have that responsibility. Since this 
responsibility would not mean any direct supervision of Federal 
employees, any direct control or oversight of Federal programs, or any 
direct expenditure of Federal funds, we do not believe it would pose 
constitutional problems in our federal system.
    To the extent this does raise constitutional issues, we suggest 
there are ways to mitigate, if not eliminate them. One would be to 
amend H.R. 585 to require only that the Secretary of the Interior and 
the Secretary of Agriculture ``receive input'' from the Governor of a 
State (or their designee) in deciding whether a community is a gateway. 
In that case, we suggest that, when a Secretary determines that a 
community is not a gateway, a written explanation should be provided by 
the Secretary to the respective Governor and to Congress. There is 
precedent for reporting back to Congress on decisions made by the 
Secretary's of the Interior and Agriculture as outlined in the recently 
passed Federal Lands Recreation Enhancement Act. Under section 4, (d), 
paragraph (4), Notice of Rejection. If the Secretary rejects the 
recommendation of a Recreation Resource Advisory Committee, the 
Secretary shall issue a notice that identifies the reasons for 
rejecting the recommendation to the Committee on Resources of the House 
of Representatives and the Committee on Energy and Natural Resources of 
the Senate not later than 30 days before the Secretary implements a 
decision pertaining to that recommendation. Similar language could read 
for the Gateway Community Cooperation Act as follows: Notice of 
Rejection.--If the Secretary rejects the recommendation of the Governor 
of a State, in the designation of a gateway community, the Secretary 
shall issue a notice that identifies the reasons for rejecting the 
recommendation to the Committee on Resources of the House of 
Representatives and the Committee on Energy and Natural Resources of 
the Senate not later than 30 days after the rejection.
    Another way to mitigate constitutional problems may be for Congress 
to reduce the discretionary authority of the State official involved by 
including criteria either in the legislative language or in the report 
language to define more precisely what constitutes a gateway community. 
Agreeing on such criteria would be challenging but we would be glad to 
work with you and the Subcommittee to develop them.
      Responses of Bob Warren to Questions From Senator Murkowski
    Question 1. Does your organization, the National Association of 
Gateway Communities include representation from Alaska? Have any of 
these communities been involved in the development of this legislation?
    Answer. At present, the NAGC does not have any members in Alaska. 
In late July, the president of the NAGC will visit Alaska to meet with 
gateway communities there and we will be happy to report back to 
Senator Murkowski and the Subcommittee on the results of that trip as 
they may pertain to this legislation.
    Question 2. My constituents in Alaska often express concern that 
federal land managers approach local leaders with something of a heavy 
handed attitude. Do you see this situation as having improved and what 
would this bill do to bring about changes in attitude.
    Answer. Although relations between gateway communities and Federal 
land managers have improved somewhat in Alaska and elsewhere in recent 
years, those relations continue to vary according to the personalities 
involved--on the part of both the Federal land managers and gateway 
officials and other local leaders. This bill alone will not change 
attitudes overnight. We understand that you cannot mandate cooperation 
and harmony by statutory decrees. But what can be mandated is that both 
Federal land managers and gateway representatives meet, discuss, share 
information and concerns and, in that way, by working and consulting 
together, hopefully, increase mutual understanding of each other's 
perspectives, values, goals and needs. We believe H.R. 585 is a 
substantial, historic step towards that outcome and we look forward to 
working with the Subcommittee to enact it into law.

                                    

      

</pre></body></html>
